<html>
<title> - LOOKING AT OUR HOMELESS VETERANS PROGRAMS: HOW EFFECTIVE ARE THEY?</title>
<body><pre>[Senate Hearing 109-533]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-533
 
   LOOKING AT OUR HOMELESS VETERANS PROGRAMS: HOW EFFECTIVE ARE THEY?

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 16, 2006

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-175                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                      Larry Craig, Idaho, Chairman
Arlen Specter, Pennsylvania          Daniel K. Akaka, Hawaii, Ranking 
Kay Bailey Hutchison, Texas              Member
Lindsey O. Graham, South Carolina    John D. Rockefeller IV, West 
Richard Burr, North Carolina             Virginia
John Ensign, Nevada                  James M. Jeffords, (I) Vermont
John Thune, South Dakota             Patty Murray, Washington
Johnny Isakson, Georgia              Barack Obama, Illinois
                                     Ken Salazar, Colorado
                  Lupe Wissel, Majority Staff Director
               D. Noelani Kalipi, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                             March 16, 2006
                                SENATORS

                                                                   Page
Craig, Hon. Larry, Chairman, U.S. Senator from Idaho.............     1
    Prepared statement...........................................     1
Akaka, Hon. Daniel K., Ranking Member, U.S. Senator from Hawaii..     2
    Prepared statement...........................................     3
Obama, Hon. Barack, U.S. Senator from Illinois...................    17
    Prepared statement...........................................    17
Salazar, Hon. Ken, U.S. Senator from Colorado....................    33
    Prepared statement...........................................    33

                               WITNESSES

Blecker, Michael, Executive Director, Swords to Plowshares, San 
  Francisco, California; on behalf of the National Coalition for 
  Homeless Veterans..............................................     4
    Prepared statement...........................................     6
Belcher, Alan, President, Board of Directors, Transitional Living 
  Services, Woodstock, Illinois..................................    18
    Prepared statement...........................................    19
Cantwell, Thomas R., Jr., Manager, Cloudbreak Development, LLC, 
  Inglewood, California..........................................    22
    Prepared statement...........................................    24
        Table 1. Veterans in Progress Program Objectives.........    27
        Table 2. Sobriety Maintenance............................    29
        Table 3. Transition to Long-Term Housing.................    30
        Table 4. Housing Stability...............................    30
        Table 5. Job Placement...................................    31
        Exhibit A.--U.S. VETS Housing Program....................    32
Dougherty, Peter H., Director, Homeless Veterans Programs, 
  Department of Veterans Affairs; accompanied by Paul E. Smits, 
  Associate Chief Consultant, Homeless and Residential Treatment 
  Programs, Department of Veterans Affairs; and Roger Casey, 
  Program Manager, Homeless Grant and Per Diem Program, 
  Department of Veterans Affairs.................................    39
    Prepared statement...........................................    41
    Response to written questions submitted by Hon. Barack Obama.    46
Ciccolella, Hon. Charles S., Assistant Secretary for Veterans' 
  Employment and Training, Department of Labor...................    47
    Prepared statement...........................................    48
        Charts: Homeless Veterans' Reintegration Program.........    51
Mangano, Philip F., Executive Director, U.S. Interagency Council 
  on Homelessness................................................    53
    Prepared statement...........................................    55

                                APPENDIX

Burr, Hon. Richard, U.S. Senator from North Carolina, prepared 
  statement......................................................    63
Miller, Sandra A., Chair, Homeless Veterans Task Force, Vietnam 
  Veterans of America, prepared statement........................    63


   LOOKING AT OUR HOMELESS VETERANS PROGRAMS: HOW EFFECTIVE ARE THEY?

                              ----------                              


                        THURSDAY, MARCH 16, 2006

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:57 a.m., in 
room 418, Russell Senate Office Building, Hon. Larry E. Craig, 
Chairman of the Committee, presiding.
    Present: Senators Craig, Akaka, Obama, and Salazar.

      OPENING STATEMENT OF HON. LARRY E. CRAIG, CHAIRMAN, 
                    U.S. SENATOR FROM IDAHO

    Chairman Craig. Good morning. We are doing something very 
unusual in the history of the Senate. We will be starting the 
hearing early today because we have been thrown a curve, and 
that is we are in a marathon voting session with the budget 
resolution. At about 10:40, Senator Akaka and I are going to 
have to leave for a series of votes, so we are going to have to 
abbreviate the whole process today. We still want to get all of 
you in, those who have come to testify, and so we will 
certainly accommodate and feel obligated to do so.
    Obviously, dealing with America's homeless veterans is a 
critical and important issue to us. This Committee has focused 
on this problem and how to resolve it, and will continue to as 
we look at it not only today, but into the future.
    This year alone, more than a half dozen Federal agencies 
will devote over $2 billion to homelessness. The VA alone will 
spend upwards of $221 million to treat the underlying 
conditions and situations. It is important that we know how 
that is working because reports indicate that there are still 
way too many homeless veterans. I think we must also pursue, as 
it relates to what triggers a program, who is a homeless 
veteran, how that individual is identified and defined, and 
that is going to be an important part of the issue.
    I will submit the rest of my opening statement for the 
record.
    [The prepared statement of Senator Craig follows:]

         Prepared Statement of Hon. Larry E. Craig, Chairman, 
                        U.S. Senator from Idaho

    Good morning ladies and gentlemen. The Committee on Veterans' 
Affairs will now come to order.
    Today's examination of homeless veteran programs is a timely one. 
Public Law 107-95 was enacted in December 2001, and many on this 
Committee had a hand in crafting it. But, that was the last 
authorization of many of the programs aimed at preventing and reducing 
homelessness amongst veterans. A number of those authorizations have 
expired or will expire this year.
    Today, we will examine what is working, what isn't, whether there 
is duplication that might be eliminated, and whether there are 
deficiencies that must be addressed. And, as the witness panels 
suggest, I am not only interested in hearing from the government 
agencies that administer these programs. I also want to hear from those 
in our communities who have, and continue to, help homeless veterans 
recover and rehabilitate in their hometowns.
    The statistics are staggering. Forty-five percent of homeless 
veterans have a mental illness. Half suffer from addiction. Over a 
third have both psychiatric and substance abuse disorders.
    This year alone, more than a half dozen Federal agencies will 
devote over $2 billion to homelessness. VA alone will spend upward of 
$221 million on grants, housing, and treatment of the underlying 
conditions. In fact, the budget we are debating this week includes 
record-level funding for the sixth straight year for targeted programs 
for homeless veterans. These figures don't include the total costs of 
the law enforcement and emergency room services of the homeless, which 
are astounding.
    America's chronically homeless are some of the most expensive 
people in communities across this country, yet they live lives most of 
us can't imagine. Today I hope to learn what is being done to assist 
homeless veterans resume their self-sufficiency and independence.
    The comprehensive services needed make this a complex challenge. I 
am particularly interested in four distinct, but equally important 
matters.
    First, who is a homeless veteran? One of our biggest challenges, as 
I see it, is that there is no settled definition of homelessness. Some 
programs follow definitions in law, and some have adopted modified 
understandings. But, varying interpretations are leading to varying 
eligibility. If we are to consider expanding programs to include those 
who are ``imminently at risk'' of homelessness, we must first agree 
upon who is homeless, and who is imminently at risk.
    Second, are local partners incentivized to help solve this problem? 
Our communities are on the front lines of homelessness, and VA 
employees in suburban and rural areas have told me of their difficulty 
in attracting community participants in the Grant and Per Diem and 
other programs.
    Third, what is being done to prevent future homelessness? I am 
concerned by accounts of returning OEF/OIF soldiers spending holidays 
in shelters across this country. And finally, as the number of women 
veterans rises, are we prepared to meet their needs? We are privileged 
today to have two panels of witnesses to speak on this very important 
issue. On our first panel is Pete Dougherty, Director of VA's Office of 
Homeless Veterans Programs. Pete is joined today by Paul Smits and 
Roger Casey, both of VA.
    Representing the Labor Department's Veterans' Employment and 
Training Program is Assistant Secretary ``Chick'' Ciccolella, and 
representing the Interagency Council on Homelessness, Executive 
Director Philip Mangano.
    Shortly, we will be joined on the second panel by Michael Blecker, 
representing the National Coalition of Homeless Veterans; Alan Belcher, 
President of Board of Directors of Transitional Living Services in 
Woodstock, Illinois; and Tim Cantwell, Manager of Cloudbreak 
Development in Inglewood, CA.
    Gentlemen, I welcome all of you here today and I look forward to 
your testimony. First, I want to yield to the Ranking Member of the 
Committee on Veterans' Affairs, Senator Daniel Akaka.

    Chairman Craig. I would turn to Senator Akaka for any 
additional comments he would like to make.

      STATEMENT OF HON. DANIEL K. AKAKA, RANKING MEMBER, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I enjoy 
working with you and with the staffs and look forward to 
continuing with this problem that we have.
    I want to welcome our witnesses. I know we will have two 
panels, and we certainly join you in trying to determine how we 
can help the homeless. We know you are out there trying to help 
the homeless. It has really been a problem of the veterans of 
our country.
    Mr. Chairman, I too, want to submit my statement and we 
would like to hear from the witnesses. Thank you.
    Chairman Craig. Senator, thank you very much.
    [The prepared statement of Senator Akaka follows:]

      Prepared Statement of Hon. Daniel K. Akaka, Ranking Member, 
                        U.S. Senator from Hawaii

    It is certainly a pleasure to be here today. We are examining what 
VA and the Department of Labor are doing to help homeless veterans. We 
are joined here by two panels of witnesses, all of whom are dedicated 
toward helping homeless veterans. Sadly, they are not short of work, as 
it has been estimated that veterans comprise approximately one-third of 
the total homeless population.
    Of the Vietnam Era veterans, there are more homeless veterans today 
than there were casualties in the entire Vietnam War. For too long, the 
causes of homelessness, alcohol and drug abuse, PTSD, and transition 
from military to civilian life have not been appropriately addressed. 
Many veterans suffer from psychological and substance abuse problems 
that put them at risk for becoming homeless. We must lay the groundwork 
to ensure this tragic cycle does not repeat itself with the veterans of 
Operations Iraqi and Enduring Freedom (OIF/OEF).
    Just in the first part of this year, VA has seen a 30 percent 
increase in the number of veterans of OIF/OEF who may have PTSD, and a 
29 percent increase in OIF/OEF veterans with substance abuse problems. 
Resources must be made available to ensure that VA can provide these 
veterans with the care that they need and to keep them off the streets.
    It is particularly troubling to me that an estimated 56 percent of 
today's homeless veterans are minorities. The homeless rate in my home 
state of Hawaii has nearly doubled since early 2000--with the majority 
of Hawaii's new homeless being Native Hawaiians. The city of Honolulu 
has a tremendous problem with affordable housing, increasing the 
possibility of becoming homeless for those who already struggle to make 
ends meet.
    Over the last 10 to 15 years, VA has done much to address 
homelessness among veterans and has undertaken various initiatives to 
combat this problem. However, there is still much more that can and 
should be done. Today's hearing will give us the opportunity to hear 
what VA, Labor, and community-based providers are doing successfully, 
as well as to find out what the next steps should be.
    I ask that we all keep in mind the consequences of failing to help 
veterans with PTSD, substance abuse disorders, employment issues, or a 
seamless transition from military to civilian life. We are failing in 
our responsibilities if we do not address these issues adequately. Our 
focus should not just be on getting homeless veterans off the streets 
through what is known as ``warehousing'', but actually getting them 
back on their feet and motivated toward becoming productive citizens 
again.
    I look forward to working with all of you to eradicate homelessness 
among our veterans. Thank you, Mr. Chairman.

    Chairman Craig. We are going to reverse panel order this 
morning because of those who have traveled a long distance to 
be here. We want to make sure we get to them first before we 
get testimony from those who are residents here in the District 
or in the area.
    So we have asked the second panel to come first, Michael 
Blecker, Executive Director, Swords to Plowshares, San 
Francisco, California, representing the National Coalition of 
Homeless Veterans; Mr. Alan Belcher, President of Board of 
Directors, Traditional Living Services, Woodstock, Illinois; 
and Tim Cantwell, Manager, Cloudbreak Development, Inglewood, 
California.
    Michael, we will start with you this morning. All of your 
full written statements will be a part of the record. Please 
proceed.

  STATEMENT OF MICHAEL BLECKER, EXECUTIVE DIRECTOR, SWORDS TO 
    PLOWSHARES, SAN FRANCISCO, CALIFORNIA; ON BEHALF OF THE 
            NATIONAL COALITION FOR HOMELESS VETERANS

    Mr. Blecker. Thank you very much. I am Michael Blecker and 
it has been my honor to work with and on behalf of veterans on 
the community-based level for the last 30 years. I am also one 
of the founders of the National Coalition for Homeless Vets 
(NCHV), on whose behalf I am testifying.
    NCHV was established in 1990 as a nonprofit organization 
with the mission of ending homelessness among veterans by 
shaping public policy, promoting collaboration, and building 
the capacity of service providers. NCHV represents over 250 
community-based and faith-based organizations that work with 
homeless veterans. NCHV provides valuable technical assistance 
with member agencies, and these agencies look to NCHV to help 
us communicate with policymakers who are also interested in 
resolving this profound issue. The written testimony provided 
by NCHV shows the kind of hard-hitting analysis that is so 
significant and so important, because we are in the community 
doing the work.
    I am really proud to represent the community-based system 
of care for these 250 agencies. Just who are these community-
based organizations? Well, these organizations all have their 
own unique story, and are the product of blood, sweat, and 
tears. We are the ones that bring the services to the table. We 
are the ones on the front line. We work closely with the VA to 
address this terrible problem of homelessness.
    Many of us are driven by the same values that drove us when 
we were in combat or in the military, which is that you just 
have to take care of yourself and your buddies, and no matter, 
whether the war is popular or not popular, you have to go on. 
You have to persevere, and you have to be determined.
    We created these programs. They weren't given to us on a 
silver platter. For example, the programs we have in San 
Francisco on Treasure Island and Presidio, we fought and 
struggled to get these programs going. We got the support of 
our communities. We built support from our boards of directors. 
That is who the CBOs are. We found folks who are in the 
community that are successful, maybe it is time to turn to 
their brothers and sisters who still need help. That is who 
CBOs are around the country.
    We have a tough job ahead of us. We have a tough job 
because homelessness is a tough job, whatever number you use. 
The numbers are enormous and staggering. There shouldn't be one 
homeless vet, and whether you are arguing that there are 
200,000 or less than 200,000, the veterans who are in poverty, 
who are suffering today--right now as we speak-- are those whom 
we need to put our heads together and work as hard as we can, 
for they deserve nothing but the best.
    The problem, I think, is also compounded by the fact that 
of these veterans, nearly half served during the Vietnam War. 
That tells you they are 55 and older. Probably half are 
minorities, with most being African-Americans. They have a 
range of issues besides mental health and addiction issues. 
They also suffer a lot of primary health care problems. They 
are often older than their years. They suffer from issues like 
diabetes, high blood pressure and other primary health care 
issues, and issues of neglect. I would argue that veterans, 
despite even a disproportionate number of the homeless 
population, are even a greater percentage of the chronic 
homeless population because of all these factors. So we have 
our work cut out for us and we are determined to work hard.
    I want to talk about a very important program that has 
allowed the community-based network to do its job. That is the 
Grant and Per Diem Program. This Grant and Per Diem Program is 
funded by the VA and set up as a partnership for the VA to work 
with the community to address homelessness. One of the key 
features about addressing homelessness is bringing beds to the 
table, and creating programs. The Grant and Per Diem Program is 
one of the programs that allows these community agents to 
receive some funding to move ahead, and that is why there are 
250 programs involved and there are nearly 10,000 beds for 
homeless veterans today.
    These are the programs that bring not just housing, but 
very enriched services to the homeless. CBOs have legal 
services, employment and training services, social services, 
crisis counseling, outreach programs. It takes all of those 
programs. You can't just have one service. You have to have 
multi-services. So you need help, you need funding from all 
different accounts to make a difference.
    For each of these projects, each story is different. Each 
community is different. Each community has the partnership and 
the support that allows them to survive.
    I also want to say something about the HVRP program--
Homeless Veterans Reintegration Project--that is part of the 
Department of Labor. It is also a key ingredient, in allowing 
us to be successful.
    I want to reserve a few of my comments about Iraq war 
veterans. We already have Iraqi war vets who seek housing 
assistance, and not just at Swords, but throughout the entire 
community. According to a recent study by Colonel Charles Hoge, 
M.D., published in the Journal of Medicine, fully a third of 
those seeking help from the VA--these are current soldiers--are 
requesting mental health services. Our more than 30 years of 
working with veterans tells us that these war vets are at high 
risk of homelessness.
    The Iraq vets we have spoken to tend to suffer from PTSD or 
other mental health conditions. They are unable to work on a 
regular basis. They are predisposed for other risk factors, 
including problems at home, co-occurring substance abuse, and 
even struggles establishing a VA disability claim. It is really 
crucial that we help them now. We have a national obligation to 
prevent what happened to our other generations of war veterans. 
We have to stop homelessness, and we owe it to the men and 
women who are fighting and dying right now.
    Chairman Craig. Michael, thank you. Thank you very much for 
that excellent statement.
    [The prepared statement of Mr. Blecker follows:]

 Prepared Statement of Michael Blecker, Executive Director, Swords to 
 Plowshares, on Behalf of the National Coalition for Homeless Veterans

                           EXECUTIVE SUMMARY

Part I.--Homelessness Among Veterans
    <bullet> Nearly 200,000 veterans are homeless on any given night; 
more than 400,000 experience homelessness over the course of a year.
    <bullet> Like their non-veteran counterparts, veterans are at high 
risk of homelessness due to extremely low or no income, dismal living 
conditions in cheap hotels or in overcrowded or substandard housing, 
and lack of access to health care.
    <bullet> In addition to these shared factors, a large number of 
homeless veterans experience problems that are directly traceable to 
their experience in military service or to their return to civilian 
society without appropriate transitional supports.
    <bullet> Preventing and ending homelessness among veterans requires 
general responses of benefit to homeless persons and persons at risk 
for homelessness and specialized responses targeted to homeless 
veterans.
Part II.--VA and DOL Specialized Homeless Veteran Programs
    <bullet> Enact the Sheltering All Veterans Act (S. 1180).
    <bullet> Reauthorize the Homeless Provider Grant and Per Diem 
Program for at least a 5-year period at the $200 million authorization 
level.
    <bullet> Require VA to pay GPD grantees per diem payments without 
adjustments.
    <bullet> Reauthorize the Homeless Veterans Reintegration Program 
for a 5-year period at the $50 million authorization level.
    <bullet> Expand the eligible population for HVRP services to 
include veterans at imminent risk of homelessness.
    <bullet> Require VA outreach plans and outreach efforts to add 
homelessness prevention matter as expected outreach content, including 
information on risk factors for homelessness, a self-assessment of risk 
factors, and contact information for preventative assistance associated 
with homelessness.
    <bullet> Eliminate the 60-day restriction on access to the Homeless 
Veteran Dental Care benefit.
    <bullet> Reauthorize the Homeless Veteran Service Provider 
Technical Assistance Program for a 5-year period at the $1 million 
authorization level.
    <bullet> Establish a specialized homeless program specific purpose 
account within the VA medical services appropriation.
    <bullet> Authorize grants to homeless veteran service providers for 
public benefit and veteran benefit outreach, application assistance, 
and reconsiderations and appeals support.
Part III.--VA Surplus Property
    <bullet> Require VA to select the McKinney-Vento Title V Surplus 
Property Program as its first method for transferring real property to 
homeless service providers.
    <bullet> Require VA to ensure that space agreements with homeless 
service providers are set without charge or at least at a rate not to 
exceed the direct costs associated with making it available.
    <bullet> Urge the VA Secretary to take actions to assure greater 
usage of VA capital assets to respond to the human needs of veterans 
(and low-income persons in general secondarily).
Part IV.--Servicemember Transition
    <bullet> Enact the Veterans' Enhanced Transition Services Act (S. 
1341).
    <bullet> Establish a policy of universal servicemember attendance 
in the Department of Labor's Transition Assistance Program.
    <bullet> Strengthen DOD preseparation counseling to ensure equity 
in its delivery to servicemembers regardless of component, branch, 
rank, duty station, and other factors.
Part V.--Permanent Housing for Low-Income Veterans
    <bullet> Enact the Services to Prevent Veterans' Homelessness Act 
(S. 1991).
    <bullet> Introduce and enact the Veterans' Housing Equity Act, 
NCHV's legislative proposal to develop and expand permanent housing 
opportunities for very low-income veterans.
    <bullet> Ensure completion of Government Accountability Office 
study on housing assistance to low-income veterans.

                              INTRODUCTION

    The National Coalition for Homeless Veterans appreciates the 
opportunity to submit testimony on Federal efforts to end chronic 
homelessness and stem future homelessness amongst veterans.
    The National Coalition for Homeless Veterans (NCHV), established in 
1990, is a nonprofit organization with the mission of ending 
homelessness among veterans by shaping public policy, promoting 
collaboration, and building the capacity of service providers. NCHV's 
over 250 member organizations in the states and territories provide 
housing and supportive services to homeless veterans and their 
families, such as street outreach, drop-in centers, emergency shelter, 
transitional housing, permanent housing, recuperative care, hospice 
care, food and clothing, primary health care, addiction and mental 
health services, employment supports, educational assistance, legal aid 
and veterans' and public benefit advocacy.
    Our statement is organized in five parts. The first part offers a 
general overview on homelessness among veterans. The second part 
presents our recommendations for reauthorizing and strengthening VA and 
DOL specialized homeless veteran programs. The third part outlines 
legislative and management recommendations regarding the use of VA 
surplus property for homeless purposes. The fourth part presents our 
legislative recommendations on servicemember transition, a strategy for 
preventing veteran homelessness. The fifth part presents our 
recommendations regarding permanent housing for homeless and other low-
income veterans.

Part I.--Homelessness Among Veterans
    The VA estimates that nearly 200,000 veterans are homeless on any 
given night; more than 400,000 experience homelessness over the course 
of a year. Conservatively, one of every three homeless adult males 
sleeping in a doorway, alley, box, car, barn or other location not fit 
for human habitation in our urban, suburban, and rural communities has 
served our nation in the Armed Forces. Homeless veterans are mostly 
males (2 percent are females). 54 percent are people of color. The vast 
majority are single, although service providers are reporting an 
increased number of veterans with children seeking their assistance. 45 
percent have a mental illness. 50 percent have an addiction.
    America's homeless veterans have served in World War II, Korea, the 
Cold War, Vietnam, Grenada, Panama, Lebanon, anti-drug cultivation 
efforts in South America, Afghanistan, and Iraq. 47 percent of homeless 
veterans served during the Vietnam Era. More than 67 percent served our 
nation for at least 3 years and 33 percent were stationed in a war 
zone.
    Male veterans are 1.3 times as likely to become homeless as their 
non-veteran counterparts, and female veterans are 3.6 times as likely 
to become homeless as their non-veteran counterparts. A random survey 
of homeless veteran service providers conducted in November 2005 by 
NCHV suggests the homeless veteran population is changing in profile. 
Results of the survey identify three veteran subpopulations that may 
present significant increases in demand for services in the immediate 
future: aging Vietnam veterans, women veterans, and combat veterans of 
America's current operations in Iraq and Afghanistan.
    Like their non-veteran counterparts, veterans are at high risk of 
homelessness due to extremely low or no income, dismal living 
conditions in cheap hotels or in overcrowded or substandard housing, 
and lack of access to health care. In addition to these shared factors, 
a large number of at-risk veterans live with post traumatic stress 
disorders and addictions acquired during or exacerbated by their 
military service. In addition, their family, social, and professional 
networks are fractured due to lengthy periods away from their 
communities of origin and their jobs. These problems are directly 
traceable to their experience in military service or to their return to 
civilian society without appropriate transitional supports.
    Contrary to the perceptions that our nation's veterans are well-
supported, in fact many go without the services they require and are 
eligible to receive. One and a half million veterans have incomes that 
fall below the Federal poverty level, including 634,000 living below 50 
percent of the Federal poverty level. Neither the VA, state or county 
departments of veteran affairs, nor community-based and faith-based 
service providers are adequately resourced to respond to these 
veterans' health, housing, and supportive services needs. For example, 
the VA reports that its homeless treatment and community-based 
assistance network serves 100,000 veterans annually. With an estimated 
400,000 veterans experiencing homelessness at some time during a year 
and the VA reaching only 25 percent of those in need, 300,000 veterans 
remain without services from the department responsible for supporting 
them. Likewise, other Federal, state, and local public agencies--
notably housing and public health departments--are not adequately 
responding to the housing, health care and supportive services needs of 
veterans. Indeed, it appears that veterans fail to register as a target 
group for these agencies.
    Like their non-veteran counterparts, preventing and ending 
homelessness among veterans requires public commitment and action--
including Congressional action--to ensure access to housing, income, 
and health security. This must be accomplished both through general 
responses of benefit to homeless persons and persons at high-risk for 
homelessness and through specialized responses targeted to homeless 
veterans.

Part II.--VA and DOL Specialized Homeless Veteran Programs
    Congress has established a small set of programs to address 
homelessness among veterans. The bulk of these programs are 
administered by the U.S. Department of Veterans Affairs. Collectively, 
they are identified as VA's ``specialized homeless programs'' and 
include medical care, domiciliary care, transitional housing, and 
supportive services centers. The programs reside within the Mental 
Health Service of the Veterans' Health Administration. Total spending 
on VA specialized homeless programs amounted to $182 million in fiscal 
year 2005 and is estimated to reach $224 million in fiscal year 2006. 
The Department projects fiscal year 2007 spending on VA homeless 
programs to reach $244 million, should Congress accept the President's 
budget request. These specialized homeless programs function not only 
as a safety net for homeless veterans unable or hesitant to access 
emergency shelter, transitional housing or supportive services 
organized for the general population, they also function as a safety 
valve when other VA programs fail--largely due to insufficient 
resources--to reach veterans at high-risk of homelessness, such as 
veterans with chronic mental illnesses and addictions.
    In addition, the Department of Labor (DOL) administers the Homeless 
Veterans Reintegration Program (HVRP), a job placement and supportive 
services program targeted to veterans experiencing homelessness. Total 
spending on HVRP amounted to $20 million in fiscal year 2005 and is 
appropriated at $22 million in fiscal year 2006. The President's fiscal 
year 2007 budget requests $22 million for HVRP.
    Many of the specialized homeless veteran programs that Congress has 
authorized are scheduled to sunset in 2006 and merit extension. In 
addition, new issues affecting homeless veterans and a greater 
understanding of the gaps in supports for them have emerged that 
require a Congressional response. NCHV urges Congress to reauthorize, 
strengthen, and expand the specialized homeless programs and 
authorities of the Department of Veterans Affairs and the Department of 
Labor this year.
    The National Coalition for Homeless Veterans is pleased to support 
the Sheltering All Veterans Everywhere Act (S. 1180). We are proud that 
the following organizations join us in supporting this measure: 
Veterans of Foreign Wars of the United States, National Alliance to End 
Homelessness, National Alliance on Mental Illness, National Health Care 
for the Homeless Council, National Law Center on Homelessness & 
Poverty, National Network for Youth, Paralyzed Veterans of America, 
Volunteers of America, Disabled American Veterans, National Coalition 
for the Homeless, and The American Legion.
    We extend our deep gratitude to Senator Barack Obama (D-IL) for 
catapulting homeless veteran issues onto the Senate agenda by 
introducing this comprehensive measure. We also extend our appreciation 
to the other U.S. Senators, including Senator Patty Murray (D-WA) on 
this Committee, who have already cosponsored the measure. We invite all 
members of the Senate Veterans' Affairs Committee to join as cosponsors 
to S. 1180.
    We urge Congress to enact the Sheltering All Veterans Act this 
year, either as a stand-alone measure or by incorporating its 
provisions in another measure. We offer the following comments on the 
provisions of S. 1180.
    Reauthorization of Homeless Providers Grant and Per Diem Program 
(Section 3)--The Homeless Providers Grant and Per Diem (GPD) Program 
(38 U.S.C. 2011-2013) provides competitive grants to community-based, 
faith-based, and public organizations to offer transitional housing or 
service centers for homeless veterans. The GPD program is set to expire 
September 30, 2006. The current authorization level for the program is 
$99 million. Collectively, nearly 100 GPD providers offer nearly 10,000 
transitional housing beds. More than 150 outreach and transportation 
vans are supported through the program.
    VA reports that 75 percent of veterans provided residential 
services through either a GPD grantee or a homeless Domiciliary 
Residential Rehabilitation and Treatment Program (DRRTP) were either 
independently housed or moved to another residential program at 
discharge. 58 percent of those discharged were employed or 
participating in Compensated Work Therapy. A VA-conducted follow-up 
assessment of the outcome of these same programs found that 80 percent 
of veteran residents were still housed 12 months after discharge.
    The GPD program is an essential component of the VA's continuum of 
care for homeless veterans, assuring the availability of social 
services, employment supports, and direct treatment or referral to 
medical treatment to numerous veterans annually. Congress must continue 
the GPD program. In addition to supporting Section 3 of S. 1180, we 
support an element of the Senate-passed Veterans Health Care Act of 
2005 (S. 1182) that provides permanent authority to the Grant and Per 
Diem Program.
    The current authorization level for GPD is simply insufficient to 
enable VA to meet the demand for transitional housing assistance 
expressed by homeless veterans. Data gathered by VA Medical Centers 
(VAMCs) through the Community Homelessness Assessment, Local Education, 
and Networking Groups (CHALENGs) process consistently document that the 
numbers of homeless veterans in their service areas far exceed the 
number of GPD beds currently available for them. Without an increase in 
the authorization level, VA will not be able to add new beds. The $130 
million authorization level VA is seeking, and which is included in S. 
1182, will allow VA only to maintain the current number of authorized 
beds, but not add new beds. Furthermore, as the per diem rate to cover 
the daily cost of care rises annually, there could be an actual 
reduction in the number of beds, if the authorization level is not 
increased. Accordingly, Congress should raise the authorization level 
to $200 million. We note that even at this higher authorization level, 
funding for GPD programs would still represent less than one one-
hundreth of a percent of VA's total budget.
    GPD Per Diem Payments (Section 3)--Congress's intent when it 
adopted 38 U.S.C. 2012(a)(2) was to simplify the process for paying GPD 
grantees. Regrettably, VA is requiring GPD grantees to submit extensive 
documentation on all of their sources of project funding in order to 
secure per diem payments at the maximum rate permitted by statute 
(which is the rate authorized for State homes for domiciliary care), 
straining grantees and VA alike. This requirement basically hamstrings 
providers from using their other funds as leverage, and instead forces 
them to use them as subsidy.
    In addition, grantees report a burden in preparing the 
documentation VA requires to negotiate the rate. Despite grantee 
appeals for intercession and Congressional intervention on a situation-
by-situation basis, VA policy remains unchanged. Accordingly, we urge 
Congress to amend the statute to require VA to pay GPD grantees per 
diem payments without adjustments.
    Reauthorization of Homeless Veterans Reintegration Program (Section 
4)--The Homeless Veterans Reintegration Program (HVRP) (38 U.S.C. 
2021), within the Department of Labor's Veterans Employment and 
Training Service (VETS), provides competitive grants to community-
based, faith-based, and public organizations to offer outreach, job 
placement and supportive services to homeless veterans. HVRP grants 
address two objectives: (a) to provide services to assist in 
reintegrating homeless veterans into meaningful employment within the 
labor force, and (b) to stimulate the development of effective service 
delivery systems that will address the complex problems facing homeless 
veterans. HVRP is set to expire September 30, 2006. The current 
authorization level for the program is $50 million.
    HVRP is the primary employment services program accessible by 
homeless veterans and the only targeted employment program for any 
homeless subpopulation. Homeless veterans have many additional barriers 
to employment than non-homeless veterans due to their lack of housing. 
HVRP grantees remove those barriers through specialized supports 
unavailable through other employment services programs. Grantees are 
able to place HVRP participants into employment for $2,100 per 
placement, a tiny investment for moving a veteran out of homelessness, 
and off of dependency on public programs.
    We urge Congress to reauthorize the Homeless Veterans Reintegration 
Program for a 5-year period at the $50 million authorization level. We 
note that the House-passed Veterans Housing and Employment Improvement 
Act of 2005 (H.R. 3665) accomplishes this recommendation.
    Furthermore, we challenge each member of the Senate Veterans' 
Affairs Committee--especially those members also serving on the 
Appropriations Committee--to communicate with their counterparts on the 
Appropriations Committee and insist that Congress honor the 
authorization level that the Veterans' Affairs Committee has set for 
HVRP.
    HVRP Expansion to Veterans at Imminent Risk of Homelessness 
(Section 4)--HVRP in its present form is limited to veterans currently 
experiencing homelessness (38 U.S.C. 2021(a)). This eligibility 
limitation prevents grantees from using HVRP funds for homelessness 
prevention. This eligibility restriction was appropriate when HVRP was 
first enacted in 1987. At the time, the hope was that homelessness 
could be resolved by an intensive infusion of resources to literally 
homeless people. In 2005, restricting the program to veterans already 
homeless is out of step with the general thrust of both public policy 
and service delivery practice away from simply managing homelessness to 
also preventing it. Expansion of the eligible population for HVRP 
services to include veterans at imminent risk of homelessness would 
enable HVRP to have both preventative and remedial purposes.
    Also, HVRP is being used as the account to fund a joint Department 
of Labor and Department of Veterans Affairs initiative authorized by 
Congress to assist veterans incarcerated in their reentry to the 
community. Continued use of HVRP to fund this program is technically a 
violation of the statute in that veterans incarcerated are not 
homeless. This technical violation could be easily remedied by adding 
veterans at imminent risk of homelessness as an eligible population to 
the program.
    Expansion of VA Outreach Programs (Section 5)--Servicemembers 
separating from the Armed Forces receive opportunities to learn about 
benefits for which they may be eligible, both prior to separation 
(through preseparation counseling and the Transition Assistance 
Program) and post-discharge via Department of Veterans Affairs 
outreach. VA outreach provides an opportunity, as yet untapped, to 
alert recently separated servicemembers to the increased risk of 
homelessness they face and the preventative services available to them 
if they find themselves at imminent risk of losing their living 
arrangement.
    Current law (38 U.S.C. 7722) requires VA to conduct a range of 
outreach efforts to alert veterans to the programs and services 
available through the Department. Also, current law (38 U.S.C. 2022) 
requires VA to develop a coordinated plan by the Mental Health Service 
and the Readjustment Counseling Service for joint outreach to veterans 
at risk of homelessness and an outreach program to provide information 
to homeless veterans and veterans at risk of homelessness. Individuals 
leaving the military are at elevated risk of homelessness due to a lack 
of job skills transferable to the civilian sector, disrupted or 
dissolved family and social support networks, and other risk factors 
that preceded their military service. Separating servicemembers must be 
made aware of the factors that contribute to homelessness and receive 
information about sources of preventive assistance at each stage of 
their separation.
    A robust outreach program not only informs veterans of services 
available to them should they become homeless, but also to guide them 
on steps they may take to avert homelessness. Congress should require 
VA outreach plans and outreach efforts to add homelessness prevention 
matter as expected outreach content, including information on risk 
factors for homelessness, a self-assessment of risk factors, and 
contact information for preventative assistance associated with 
homelessness.
    Current law (38 U.S.C. 2022) requires VA, in its outreach program, 
to target veterans being discharged or released from institutions after 
inpatient care. Congress should add as an additional target population 
individuals separating from the armed forces.
    Reauthorization of Health Care for Homeless Veterans Program 
(Section 6)--Current law (38 U.S.C. 2031) authorizes VA to provide 
outreach services; care, treatment, and rehabilitative services; and 
therapeutic transitional housing assistance to veterans with serious 
mental illness, including veterans who are homeless. VA uses this 
authority to operate its Health Care for Homeless Veterans program. 134 
existing HCHV teams across the country provide targeted outreach, 
medical treatment, and referral services to 67,000 homeless veterans 
annually. This authority expires December 31, 2006. Congress should 
continue this authority for at least a 5-year period.
    Reauthorization of Comprehensive Service Centers (Section 6)--
Current law (38 U.S.C. 2033) authorizes VA to provide comprehensive 
services centers to homeless veterans. VA's Comprehensive Homeless 
Centers place the full range of VA homeless efforts in a single medical 
center's catchment area and coordinate administration within a 
centralized framework. This authority expires December 31, 2006. 
Congress should continue this authority for at least a 5-year period.
    Transfer of Foreclosure Properties (Section 7)--Current law (38 
U.S.C. 2041) authorizes VA to sell, lease, or donate foreclosed 
properties to homeless service providers for purposes of assisting 
homeless veterans and their families in acquiring shelter. The program 
has proven invaluable to Federal and community efforts to provide 
permanent housing for persons experiencing homelessness. Congress 
should make permanent the transfer authority. Further, Congress should 
require VA to dispose of at least 10 percent of transferred properties 
via donation.
    Reauthorization of Special Needs Grant Program (Section 8)--Current 
law (38 U.S.C. 2061) authorizes VA to carry out a program to make 
grants available to health care facilities of the Department and to GPD 
providers to encourage development of programs for homeless veterans 
with special needs, including women (with and without children), frail 
elderly, terminally ill, or chronically mentally ill. This program is 
authorized through fiscal year 2005 at the $5 million level annually. 
The special needs program has enabled VA and GPD providers to devote 
attention to underserved subpopulation within the homeless veteran 
population. Congress should continue the program for a 5-year period. 
Further, Congress should maintain the current authorization level of $5 
million.
    Expansion of Homeless Veteran Dental Care Benefit (Section 9)--
Current law (38 U.S.C. 2062) establishes a limited dental care benefit 
for certain homeless veterans. Under the provision, homeless veterans 
in certain VA homeless programs are eligible for a one-time course of 
dental treatment which is medically necessary for veterans to gain 
employment, to alleviate pain, or to treat disease. The requirement 
that a homeless veteran participate in a VA residential program for at 
least 60 days is an inappropriate--and unjust--impediment to veterans' 
timely access to medically necessary services. Congress should 
eliminate the 60-day eligibility restriction.
    Reauthorization of Homeless Veteran Service Provider Technical 
Assistance Program (Section 10)--Current law (38 U.S.C. 2064) 
authorizes VA to make competitive grants to organizations with 
expertise in preparing grant applications to provide technical 
assistance to nonprofit community-based and faith-based groups with 
experience in providing assistance to homeless veterans in order to 
assist such groups in applying for homeless veteran grants and other 
grants addressing problems of homeless veterans. Community-based and 
faith-based organizations serving homeless veterans rely on a complex 
set of funding and service delivery streams with multiple agencies in 
order to assemble comprehensive housing and supportive services. These 
providers face a capacity gap around managing this complexity. NCHV is 
proud to have successfully competed for funding under this program. We 
believe we have been effective stewards of the TA funds and look 
forward to participating in future competitions. Congress should 
continue the program for a 5-year period. Further, Congress should 
raise the authorization level from $750,000 to $1 million. We are 
pleased that S. 1182 addresses this recommendation.
    Annual Report on Assistance to Homeless Veterans (Section 11)--
Current law (38 U.S.C. 2065) requires VA to submit to Congress an 
annual report on assistance to homeless veterans. Congress should 
require VA to include in the general contents of the report information 
on their efforts to coordinate the delivery of housing and services to 
homeless veterans with other Federal departments and agencies, 
including the Department of Defense, Department of Health and Human 
Services, Department of Housing and Urban Development, Department of 
Justice, Department of Labor, Interagency Council on Homelessness, and 
the Social Security Administration.
    Reauthorization of Advisory Committee on Homeless Veterans (Section 
12)--Current law (38 U.S.C. 2066) establishes an Advisory Committee on 
Homeless Veterans to provide a formal mechanism for the Secretary to 
gather advice from the homeless veteran service provider field and 
others with expertise on homeless veteran matters. The Committee is set 
to expire December 31, 2006. The Committee has proved invaluable in 
impacting the VA's delivery of medical care and supportive services to 
homeless veterans. Congress should extend the Advisory Committee on 
Homeless Veterans for a 5-year period.
    Advisory Committee on Homeless Veterans Composition (Section 12)--
The U.S. Interagency Council on Homelessness plays a leadership role in 
coordinating the Federal Government's response to homelessness. 
Congress should add the ICH Executive Director as an ex-officio 
representative on the Advisory Committee on Homeless Veterans.
    Study on Military Sexual Trauma and Homelessness (Section 13)--The 
VA Secretary's Advisory Committee on Women Veterans recommended in 2004 
that a study be conducted on the possible correlation between military 
sexual trauma and homelessness among veterans and effective service 
models for assembling various treatment modalities and environments. 
The study should also include an evaluation of the ``Seeking Safety'' 
intervention, a treatment regime being made available to homeless women 
veterans in eleven locations. Preliminary data from Seeking Safety 
participants indicates that over 80 percent reported a history of life-
threatening trauma, over 60 percent had been raped (with over 40 
percent of rapes occurring while serving in the military).
    In addition to the above provisions of the Sheltering All Veterans 
Everywhere Act (S. 1180), we also urge Congress to enact the following 
recommendations:
    VA Homeless Programs Specific Purpose Account--Presently Congress 
plays a limited role in determining funding levels for medical programs 
within VA, including the Department's specialized homeless programs. 
Funding for veterans medical care is appropriated in aggregate to three 
accounts (medical services, medical administration, medical 
facilities), from which the VA Secretary allocates the appropriated 
funds across VA health care networks and through the Department's 
specific purpose programs.
    Congress has routinely provided increased funding to VA for medical 
care. Regrettably, these increases have not been distributed equitably 
among VA specific purpose programs. Specialized homeless programs are 
among those that do not always receive their ``fair share'' of annual 
appropriations, or allocations at their full authorized levels. The 
establishment of a specialized homeless program specific purpose 
account within the VA medical services account would serve to ensure 
that specialized homeless programs receive any increase in VA 
appropriations in proportion to their costs within the overall VA 
medical care budget.
    We urge Congress to establish a specialized homeless program 
specific purpose account within the VA medical services appropriation 
and ensure that of such sums appropriated annually for VA medical 
services, the greater of a fixed sum of $345,672,000 or 1.26 percent of 
the total medical services appropriation be reserved for specialized 
homeless programs.
    VA should use funds within the homeless specific purpose account to 
operate: the program of the Department known as Domiciliary Residential 
Rehabilitation and Treatment Program for Homeless Veterans, 
comprehensive service programs (GPD) (Section 2011, Section 2012), 
outreach program (Section 2022), Health Care for Homeless Veterans 
(Section 2031); therapeutic transitional housing assistance (Section 
2032), comprehensive services centers (Section 2033), CHALENG (Section 
2034); administration of the loan guarantee for multifamily 
transitional housing program (Section 2051), grant program for homeless 
veterans with special needs (Section 2061), technical assistance grants 
for nonprofit community based groups (Section 2064), annual report 
(Section 2065), advisory committee on homeless veterans (Section 2066), 
the program of the Department known as Stand Downs, evaluation centers 
for homeless veterans programs, and any additional specialized homeless 
programs designated by the Secretary.
    Authorization of Benefit Assistance for Homeless Veterans--Veterans 
who are disabled by injury or disease incurred or aggravated during 
active military service are eligible for VA Disability Compensation, a 
monthly payment. Veterans are eligible for Social Security Disability 
Insurance and Supplemental Security Income benefits under the same 
conditions as any other person. Veterans are often eligible for both 
benefits. But because the programs themselves and their claims 
processes are distinct, a veteran must work their way through each one 
separately. Each process is grueling in and of itself. Navigation 
through both processes simultaneously merely compounds the complexity. 
In addition, scant attention is paid to assisting veterans in accessing 
mainstream health and income benefit programs for which they may be 
eligible including Medicaid, Food Stamps, and TANF. For homeless 
veterans--all of whom have higher priority needs such as securing a 
place to live, and some of whom either distrust or wish to avoid 
dependency on governmental programs--the various application processes 
may be insurmountable, without help. We urge Congress to authorize VA 
to carry out a program to make grants available to homeless veteran 
service providers for public benefit and veteran benefit outreach, 
application assistance, and reconsiderations and appeals support. 
Congress should authorize the program for a 5-year period at the $10 
million level annually.

Part III.--VA Surplus Property
    NCHV works to ensure that organizations, agencies, and groups 
desiring to assist veterans with the most fundamental human needs 
secure the public and private resources, including capital assets, 
necessary to provide opportunities and supports to them. With an 
estimated 400,000 veterans homeless at some time during a year and the 
VA reaching only 25 percent of those in need, 300,000 veterans remain 
without services from the department responsible for supporting them. 
In the meantime, numerous VA properties sit vacant or underutilized. We 
urge Congress to take the following action steps to further facilitate 
the transfer of VA surplus property to homeless service providers:
    VA Preference for Title V Surplus Property Program--The McKinney-
Vento Title V Surplus Property Program requires Federal departments and 
agencies, including VA, to make surplus properties available to 
nonprofit and public organizations serving homeless persons, including 
homeless veterans, at no cost. Under current law (38 U.S.C. 8122(d)), 
VA has been able to avoid declaring property excess, and thus avoid 
listing it through the Title V process, by determining that the 
property is suitable for services to homeless veterans under an 
enhanced use lease. Enhanced use lease is less favorable to homeless 
service providers than Title V because under EUL, providers are 
expected to pay for the property, while under Title V the transfer is 
without charge. Congress should require VA to select Title V as its 
first method for transferring real property to homeless service 
providers.
    VA Space Agreements with Homeless Veteran Service Providers--VA 
enters into space agreements with nonprofit organizations to utilize VA 
capital assets for services to homeless veterans. The rates the 
Department negotiates with nonprofit organizations fluctuate greatly, 
and are sometimes above fair market rental rates or at rates that are 
cost-prohibitive to nonprofit organizations. Congress should require VA 
to ensure that space agreements with homeless service providers are set 
without charge or at least at a rate not to exceed the direct costs 
associated with making it available.
    Homeless Considerations in VA Capital Asset Planning--We are 
pleased that the Capital Asset Realignment of Enhanced Serves (CARES) 
Commission, in its final report, recommended to the VA Secretary that 
``any study involving excess or surplus property should consider all 
options for divestiture, including outright sale, transfer to another 
public entity, and a reformed EUL process. VA should also consider 
using vacant space to provide supportive services to homeless 
veterans'' (p. 3-33).
    We urge the Veterans' Affairs Committee to join us in requesting VA 
to be vigorous in ensuring that vacant or underutilized VA properties 
are first made available to organizations serving those in greatest 
need rather than continuing to gather dust or being converted to 
commercial purposes by including report language to accompany any 
appropriate bill urging the Secretary to take the following actions 
with regard to management of VA capital assets:
    <bullet> Issue a Department-wide directive that articulates that 
surplus, excess, unutilized or underutilized VA properties shall first 
be made available on a no-cost or lowest-cost basis to nonprofit or 
public organizations responding to the human needs of veterans (and 
low-income persons in general secondarily), with a preference for 
organizations experienced in serving homeless veterans;
    <bullet> Establish as a Departmental goal the establishment of at 
least 50,000 additional supportive housing units for homeless veterans 
on VA property and instruct VISNs to develop concrete action plans for 
reaching this goal;
    <bullet> Instruct VISNs to identify and advertise properties 
currently or potentially suitable and available for disposition under 
the McKinney-Vento Title V program;
    <bullet> Instruct VISNs to use the Title V criteria for determining 
suitability for homeless uses when conducting these property 
assessments; and
    <bullet> Take action to ensure the Department's full compliance 
with the Title V program; prepare an analysis of VA property 
acquisition and disposition statutes, regulations, and policy guidance 
and their intersection with the Title V program; and recommend or adopt 
any changes needed in order for the VA to fully participate in the 
Title V program.

Part IV.--Servicemember Transition
    Transition planning (or discharge planning) is understood within 
the homeless service and advocacy sector to be an important tool in 
homelessness prevention. Transition planning is the process used to 
prepare a person for return or reentry to the community from a 
custodial institution, setting, or situation, such as a hospital, 
inpatient treatment facility, or prison. The concept and practice of 
transition planning is germane to the military, as it is a de facto 
custodial institution, providing employment, housing, food, and health 
care to its servicemembers within. Thus, when seeking to prevent 
homelessness among veterans, one cannot overlook the period and process 
through which servicemembers transition from the military back to 
civilian life as a critical moment both for averting homelessness among 
the few servicemembers that enter homelessness immediately or soon 
after separation from the military and for putting servicemembers at 
risk of future homelessness on a sure path to economic and social well-
being rather than a slippery slope into joblessness, family 
dissolution, and unmitigated poverty.
    Congress has already put in place the mechanisms to accomplish 
transition planning for persons exiting the military. Current law (10 
U.S.C. 1142) requires the Departments of Defense and Homeland Security 
to provide individual preseparation counseling to each member of the 
armed forces whose discharge or release from active duty is 
anticipated. Matters covered during the counseling include: a 
discussion of educational assistance, compensation, and rehabilitation 
benefits to which servicemembers are entitled; information concerning 
job search and job placement assistance; information concerning 
relocation assistance; information concerning medical and dental 
coverage; financial planning assistance; housing counseling assistance; 
and the creation of a transition plan for the servicemember. 
Preseparation counseling takes many forms, but tends to be brief group 
presentations to servicemembers immediately prior to their separation.
    Generally in the case of an anticipated retirement, preseparation 
counseling shall commence as soon as possible during the 24-month 
period preceding the anticipated retirement date. In the case of a 
separation other than retirement, counseling shall commence as soon as 
possible during the 12-month period preceding the anticipated date. 
Counseling shall be made available no later than 90 days prior to 
separation. Servicemembers being discharged or released before the 
completion of that member's first 180 days of active duty are not 
eligible for preseparation counseling, unless the separation is due to 
disability.
    Current law (10 U.S.C. 1144) authorizes the Department of Labor to 
furnish counseling, assistance in identifying employment and training 
opportunities, help in obtaining such employment and training, and 
other related information and services to members of the armed forces 
who are being separated from active duty. Elements of this program, 
known as the Transition Assistance Program (TAP), include information 
concerning employment and training assistance; information concerning 
Federal, state, and local programs and programs of military and 
veterans' service organizations; information about small business loan 
programs for veterans; information about the geographic locations to 
which members are returning; and other matters. Participation in the 
program is encouraged, not required. TAP is a two-and-a-half-day group-
level workshop.
    Former servicemembers report that the preseparation counseling and 
transition assistance programs are lacking in a number of areas. Among 
their concerns: the depth and content of preseparation counseling is 
quite variable across delivery sites. Preseparation counseling may be 
limited to brief group-level presentations rather than individualized 
transition planning (as is contemplated in the statute). Servicemember 
participation in the Transition Assistance Program is at the will of 
the unit commander, and often allowed only during off-duty time.
    Weaknesses in the both the content and delivery of servicemember 
separation programs result in some servicemembers failing to receive 
information necessary to ensure their stable health care, steady 
employment, and secure housing upon their return to civilian life. This 
places servicemembers at increased risk of homelessness.
    Several legislative measures have been introduced to strengthen the 
transition assistance experience. We support Senator Russell Feingold's 
(D-WI) Veterans' Enhanced Transition Services Act (S. 1341); Rep. 
Robert Andrews's (D-NJ) Servicemembers' Enhanced Transition Services 
Act (H.R. 2074); and Rep. Martin Meehan's (D-MA) HEROES Act (H.R. 2411) 
and are pressing the Armed Services Committees to include provisions 
from these bills in their annual defense authorization measures. Our 
priorities within these measures are (1) establishment of a policy of 
universal servicemember attendance in the Department of Labor's 
Transition Assistance Program and (2) strengthened DOD preseparation 
counseling to ensure equity in its delivery to servicemembers 
regardless of component, branch, rank, duty station, and other factors.
    We urge the Senate Veterans' Affairs Committee to communicate 
support for legislative provisions regarding universal servicemember 
attendance in DOL TAP and strengthened DOD preseparation counseling to 
the Senate Armed Services Committee. Further, we encourage all members 
of the Senate Veterans' Affairs Committee to co-sponsor S. 1341 and 
ensure its enactment this session, whether that is through the NDAA, 
another omnibus vehicle, or as a stand-alone measure.

Part V.--Permanent Housing for Low-Income Veterans
    The ultimate strategy to prevent veteran homelessness is to ensure 
permanent housing opportunities for those veterans at greatest risk of 
losing their housing in the first place--those with low-incomes. On 
this matter, the Federal Government falls far short.
    While the Federal Government makes a sizable investment in 
homeownership opportunities for veterans, there is no parallel national 
rental housing assistance program targeted to low-income veterans. 
Veterans of working age and without disabilities are not well-served 
through existing housing assistance programs due to their program 
designs. Low-income veterans in and of themselves are not a priority 
population for subsidized housing assistance. HUD devotes minimal 
attention to the housing needs of low-income veterans, as exemplified 
by the long-standing vacancy in the position of special assistant for 
veterans programs within the Office of Community Planning and 
Development. Furthermore, HUD has discontinued its participation in the 
HUD-VASH program, the only housing assistance program that was targeted 
to any veteran population. (HUD-VASH set aside a share of rental 
assistance vouchers for veterans with disabilities, matched with 
supportive services provided by the Department of Veterans Affairs). VA 
has attempted in past years to reduce its support for veterans with 
long-term residential care needs via State Veterans' homes and other 
nursing homes and shift support for those currently served via nursing 
care to care in home- and community-based settings. But, low-income 
veterans requiring supervised living arrangements will then need homes 
and community-based settings in which to live and receive VA support. 
We need not wonder why there is a homelessness crisis among our 
nation's poorest veterans.
    It is imperative that Congress take immediate action to respond to 
the permanent housing assistance needs of our nation's low-income 
veterans, including veterans experiencing homelessness. Among the 
routes to doing so:
    Services to Prevent Veterans' Homelessness Act--NCHV is pleased to 
support the Services to Prevent Veterans' Homelessness Act (S. 1991). 
We are proud that the following organizations join us in supporting 
this measure: National Alliance on Mental Illness, National Mental 
Health Association, National Health Care for the Homeless Council, 
Volunteers of America, and National Coalition for the Homeless.
    We extend our appreciation to Senator Richard Burr (R-NC) for 
leading this important measure, and to the other U.S. Senators, 
including Senator John Thune (R-SD), who have already co-sponsored it. 
We urge all members of the Senate Veterans' Affairs Committee to join 
as co-sponsors to S. 1991.
    The Services to Prevent Veterans' Homelessness Act authorizes the 
Secretary of Veterans Affairs to provide financial assistance to 
nonprofit organizations and consumer cooperatives to provide and 
coordinate the provision of supportive services for very low-income 
veterans occupying permanent housing. The financial assistance shall 
consist of payments for each household provided supportive services. 
Supportive services that may be offered include physical and mental 
health; case management; daily living; personal financial planning; 
transportation; vocational counseling; employment and training; 
education; assistance in obtaining veterans benefits and public 
benefits; child care; and housing counseling. The bill would reserve 
$25 million of the funds appropriated annually for veterans' medical 
care for this supportive services program.
    The Services to Prevent Veterans' Homelessness Act is an important 
legislative measure from the standpoints of preventing and resolving 
homelessness among veterans. As a preventive measure, the Act would 
ensure the availability of supportive services to very low-income 
veterans in home-based settings, which enables them to sustain their 
housing arrangement. As a responsive measure, the Act would ensure the 
attachment of supportive services to permanent housing, a practice 
found to be effective in helping people experiencing homelessness 
transition from residential instability to housing security. The 
legislation would establish a mechanism for VA to form supportive 
services partnerships with community- and faith-based organizations. 
And the program established by this Act will serve as a companion to an 
affordable housing production program targeted to very low-income 
veterans for which NCHV is seeking authorization and appropriations.
    We urge Congress to enact the Services to Prevent Veterans' 
Homelessness Act, either as a stand-alone measure or by incorporating 
its provisions in another measure.
    Veterans' Housing Equity Act--The National Coalition for Homeless 
Veterans has developed comprehensive legislation to develop and expand 
permanent housing opportunities for very low-income veterans. The 
legislation, the ``Veterans' Housing Equity Act,'' would establish new 
programs and activities pertaining to veterans within the U.S. 
Department of Housing and Urban Development (HUD). We are proud that 
the legislation enjoys the support of the Independent Budget Veterans 
Service Organizations and IBVSO supporters. NCHV is presently seeking a 
prime sponsor for the Veterans' Housing Equity Act in both the Senate 
and the House of Representatives.
    The Veterans' Housing Equity Act consists of seven substantive 
sections. Section 2 authorizes the HUD Secretary to establish a 
supportive housing program for very low-income veteran families. HUD 
would provide housing assistance to such veteran families via planning 
grants, capital advances, project rental assistance, and technical 
assistance to nonprofit organizations and consumer cooperatives 
proposing to develop such housing. VA would provide funding for 
supportive services to residents. Section 3 authorizes an increase in 
budget authority under the project rental assistance component of the 
Housing Choice Voucher program to finance 20,000 rental assistance 
vouchers for homeless veterans. The vouchers would be administered by 
grantees under the VA Homeless Provider Grant and Per Diem Program. 
Section 4 requires states and localities to include veterans as a 
special needs population in their public housing agency plans and their 
comprehensive housing affordability strategies. Section 5 exempts from 
calculation of a family's rental payment for federally assisted housing 
the amount of income the family receives from VA compensation and 
benefits. Section 6 authorizes the HUD Secretary to establish a 
technical assistance program to assist veteran service providers on 
federally assisted housing matters. Section 7 requires HUD to issue an 
annual report on its programs and activities pertaining to veterans. 
Section 8 establishes a position of Special Assistant for Veterans 
Affairs within HUD.
    We urge Congress to introduce and enact the Veterans' Housing 
Equity Act.
    GAO Study of Low-Income Veterans' Permanent Housing Needs--Congress 
has taken initial steps to develop an evidence base for the need for 
permanent housing assistance targeted to low-income veterans by 
including language within the report to accompany the fiscal year 2006 
military construction and veterans' affairs appropriations measure that 
requires the Government Accountability Office (GAO) to conduct a study 
on housing assistance to low-income veterans. A report is due in spring 
2006, but we do not believe GAO has even begun to start the study. We 
urge the Committee to ensure the GAO's timely completion of this 
required study.
    Permanent Housing Assistance as an Eligible Use of GPD Funds--Use 
of Homeless Provider GPD grant funds is currently limited to expansion, 
remodeling, or acquisition of facilities for use as service centers, 
transitional housing, or other facilities to serve homeless veterans 
and to procurement of vans for use in outreach to and transportation 
for homeless veterans.
    We are aware that consideration is being given to adding permanent 
housing as an eligible use of GPD funds. We are of mixed view on this 
point. On the one hand, we know that many homeless veteran service 
providers struggle to secure placement of some program participants in 
permanent units following their completion of transitional programs, 
due the shortage affordable low-income housing units generally and the 
veteran's ineligibility for or low priority for some of the assisted 
housing units that are available. On the other hand, we recognize 
transitional housing as an important and valid mechanism for providing 
supportive environments to homeless persons, including homeless 
veterans, while they navigate to successful independence. We are also 
aware that many GPD providers' program designs, facilities, and funding 
streams do not lend themselves readily to conversion to permanent 
units.
    Accordingly, NCHV could support the addition of permanent housing 
assistance as an eligible use of GPD funds, but only on the conditions 
that: (1) the authorization level for GPD be raised to at least $200 
million, to assure that no current provider is displaced by a new start 
provider proposing a permanent project; (2) there be an assurance in 
statute that the VA Secretary shall allocate annual appropriations to 
GPD at the full $200 million authorization level, again to assure non-
displacement of transitional programs; (3) there be an assurance in 
statute that current and future per diem providers that wish to offer 
transitional housing services or service centers shall be permitted to 
do so without limitation; and (4) that there be a statutory prohibition 
on the VA granting preference or priority to continuation grantees or 
new start grantees proposing permanent housing projects. NCHV would 
vigorously oppose the conversion of GPD to a permanent housing-only 
program.

                               CONCLUSION

    The National Coalition for Homeless Veterans appreciates the 
opportunity to submit recommendations to Congress regarding the 
resources and activities of the Federal Government and community-based 
and faith-based organizations as they pertain to homeless veterans. We 
look forward to continuing to work with Congress, the Administration, 
and our membership to ensure that our nation does everything within its 
grasp to prevent and end homelessness among our nation's veterans. They 
have served our nation well. It is beyond time for us to repay the 
debt.

Federal Funding
    The National Coalition for Homeless Veterans has received the 
following Federal grants:
Fiscal year 2004:
    Department of Veterans Affairs Grant to provide technical 
assistance to community based organizations with experience in 
assisting homeless veterans, $517,422.
    Department of Labor Grant to provide technical assistance to 
community based organizations with experience in assisting homeless 
veterans, $86,313.

Fiscal year 2005-2006:

    Department of Veterans Affairs Grant to provide technical 
assistance to community based organizations with experience in 
assisting homeless veterans, 2 year total award is $1,112,500.

    Chairman Craig. Now let me also recognize Senator Obama, 
who has just joined us. Senator, we are abbreviating everything 
this morning to get our panelists in and the testimony on the 
record because of the stacked vote, so we would ask that if you 
have an opening statement, you would submit it for the record.

                  STATEMENT OF SENATOR OBAMA, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Obama. Mr. Chairman, I will be happy to submit my 
statement for the record. I want to thank you and Ranking 
Member Akaka for holding this important hearing. I want to 
especially thank Mr. Belcher who has come all the way from 
Woodstock, Illinois, to tell us about the great work of 
Transitional Living Services. I look forward to hearing his 
testimony.
    [The prepared statement of Senator Obama follows:]
  Prepared Statement of Hon. Barrack Obama, U.S. Senator from Illinois
    Thank you, Chairman Craig and Ranking Member Akaka. I want to 
welcome all of our witnesses, especially Mr. Belcher, who's come all 
the way from Woodstock, Illinois to tell us about the great work of 
Transitional Living Services.
    The homeless veteran problem in this country is an overwhelming 
one. More than 400,000 veterans will experience homelessness in a year. 
In my hometown of Chicago, as many as 38,000 veterans will spend a 
night homeless this year. That's 38,000 American heroes without roofs 
over their heads in one American city.
    It is one of the great tragedies of this nation that such a 
staggering number of our veterans who risked their lives for us have no 
place to turn to and no place to call home.
    As Chairman Craig noted, there are a number of Federal programs to 
combat this problem. I agree with him that we need to examine these 
programs and seek ways to improve them. We also need to make sure they 
are adequately funded.
    Last year, I introduced the Sheltering All Veterans Everywhere 
Act--the SAVE Act--to strengthen services for homeless veterans. The 
SAVE Act reauthorizes and expands the Homeless Providers Grant and Per 
Diem Program (GPD) and the Homeless Veterans Reintegration Program 
(HVRP).
    The SAVE Act would reauthorize the GPD program through 2011, and 
raise the authorization level to $200 million per year. Last year, the 
Senate passed Senator Craig's bill, S. 1182, which reauthorized GPD at 
$130 million per year. That is an encouraging step in the right 
direction.
    For nearly 20 years, the Homeless Veterans Reintegration Program 
has helped get veterans off the streets with intensive services that 
are unavailable elsewhere and get to the heart of the causes of 
homelessness. HVRP grant recipients provide clothing and food, mental 
health and substance abuse counseling, employment services, and housing 
assistance.
    The SAVE Act expands the reach of the Homeless Veterans 
Reintegration Program to include veterans at risk of homelessness, so 
that we can work to prevent homelessness before it happens.
    This year, the President's budget flatlines spending for HVRP at 
$22 million. At this amount, we will only be able to serve 16,250 
veterans next year. I have offered an amendment to the budget 
resolution to increase HVRP spending to its full authorized amount, an 
increase of $28 million. This would help us reach approximately 36,820 
homeless veterans, an important step in the right direction. My 
amendment would also provide an additional $12 million to the 
Department of Labor to improve jobs services for hard-to-place 
veterans.
    Every day, we walk past men and women on street corners with 
handwritten signs like ``Homeless Veteran--Need Food.'' Sometimes we 
give a dollar, sometimes we just keep walking. These are soldiers who 
fought in World War II, Vietnam, and Iraq.
    We cannot allow the proud shoulders that have carried the weight of 
liberty to be broken by the terrible burden of homelessness and 
hopelessness.
    I thank Senator Craig and Senator Akaka for holding this hearing 
and for examining these issues. I hope my colleagues will join me in 
making sure these programs are improved and given the resources to meet 
their difficult task.

    Chairman Craig. Fine enough. With that introduction, Alan 
Belcher of Transitional Living Services, Woodstock, Illinois. 
Alan, welcome to the Committee.

   STATEMENT OF ALAN BELCHER, PRESIDENT, BOARD OF DIRECTORS, 
       TRANSITIONAL LIVING SERVICES, WOODSTOCK, ILLINOIS

    Mr. Belcher. Thank you, Mr. Chairman. My name is Alan 
Belcher and I am the President of the Board of Transitional 
Living Services, which is a small rural homeless veterans' 
program in Northwestern Illinois. I also work for the Veterans' 
Administration as a readjustment counselor and have done that 
under contract for the last 25 years, so I have a pretty 
fundamental understanding of homelessness and some of the 
issues that are facing our homeless in this country.
    We started our program in 1996 as a group of interested and 
dedicated Vietnam vets who formed a program, which is very, 
very much, as Mike was talking about, a grassroots program. It 
is located in a rural area and we only serve 14, but we are 
very proud of the 14 veterans whom we are serving. We are 
located about 8 miles from what would be called the sprawl of 
Chicago that is coming out the suburban sprawl in, like I said, 
a rural community.
    The population that we serve--the chronically homeless men 
and women--have serious, as you know, health issues. The health 
problems are generally the result of years of neglect and 
substance abuse and environmental stressors. Our numerous 
health care problems of our veterans require us to take 
frequent trips to VA hospitals, as you can imagine.
    One of our problems is that we are not allowed access to 
our local outpatient veterans' clinic, so as a result, we have 
to travel up to 1\1/2\ to 2 hours to access primary care for 
our veterans. So we are dedicating a staff person, a vehicle, 
and the time required for us to get primary care for our 
veterans.
    Basically, what I am asking you here today is I don't know 
if this is an issue for other homeless programs, but it is 
clearly an issue for us. We need dedicated slots at the McHenry 
CBOC. And just to put a positive word in for that CBOC is that 
they are a marvelous group. We worked very hard to get that in 
our community. They have done an excellent job of providing 
primary care, but we need access to it.
    Employment is an issue for our veterans, and just to 
dovetail this with not having access to the CBOC, you can 
imagine if one of our veterans has to travel for 5 hours to get 
a primary care appointment. There is no employer on earth that 
is going to allow that veteran to be employed for them, because 
we have to have that amount of time dedicated to it. Anyway, 
employment is a significant issue for us. We do not have the 
HVRP program, but we are going to make application for it in 
the next round. We are again located in a rural community where 
there are no jobs in that community, so transportation is an 
issue for us.
    On any given day, we have a waiting list of 12 veterans. 
Now, considering that we only serve 14, 12 is a significant 
number for us. We are in the process of expanding the program 
from 14 to 20 beds, but I don't anticipate that is going to 
help our waiting list because Chicago is combining a couple of 
programs and as a result of that, there are going to be fewer 
beds available in our area.
    From the inception of the TLS program, we have understood 
the importance of placing veterans in permanent housing. We had 
no funding for permanent housing. We thought that we were going 
to get some funding through HUD, and I can't even begin to tell 
you how it happened, but the money that we--the grant that we 
put in for--the money we received ended up going for 
transitional housing rather than permanent housing. I would 
encourage the VA to run a permanent housing program. My 
experience with the VA is that it is run well, the programs 
that they have are run well and they are much easier to work 
with and much more supportive than other sources of funds.
    Finally, I wanted to mention the soldiers returning from 
Iraq and Afghanistan. While we have yet to admit a veteran in 
our program from Iraq, I personally am serving, in my 
readjustment counseling program, four Iraqi conflict veterans. 
Two of these veterans are women, two of them are men. All four 
have mental health issues. Two of them have substance abuse 
issues. One is in a wheelchair.
    I am not sure that we are as yet prepared to deal with the 
influx of Iraqi veterans, and I say that because I know I have 
been surprised by the number of veterans that I am serving 
right now. I anticipated it to be 5 or 6 years down the road. 
To a person, each one of these Iraqi veterans is saying to me, 
``I have friends out there and they are drinking and they are 
drugging and/or they have problems. I am trying to get them in 
to see you, but they won't come in yet. They won't come in 
yet.'' So the problem will break at some point and we will have 
a major influx of Iraqi veterans.
    Thank you.
    Chairman Craig. Alan, thank you very much.
    [The prepared statement of Mr. Belcher follows:]

     Prepared Statement of Alan Belcher, President of the Board of 
                Directors, Transitional Living Services

    Honorable Chairman Craig, Honorable Senators, and Distinguished 
Guests, I would like to express my gratitude in being invited to speak 
today on behalf of the homeless veterans of Illinois. I am Alan 
Belcher, President of the Board of Directors of Transitional Living 
Services, a homeless veteran service provider based in Woodstock 
Illinois.
    Transitional Living Services (TLS) is in every sense of the phrase 
a ``grassroots organization.'' In 1996, a small group of Vietnam 
veterans met to discuss how to solve the problem of veteran 
homelessness in our own community. Once we started looking, we found 
homeless veterans throughout the area. A call to the VA determined that 
there were no veteran transitional housing programs in Illinois. The 
six of us--all Vietnam veterans--committed our time and energies to 
helping the homeless men and women who once sacrificed to serve our 
country to find the shelter, food, and health care necessary to survive 
and thrive.
    As we soon found out, it's not enough to have an identified need 
and it's not enough to have a big heart. We have had to struggle and 
fight for every advancement in our program. Neither an inadequate 
program nor failure has been acceptable options for us. Therefore, it 
took us 5 years from the inception of our program to the actual 
securing of a facility and the opening of its doors to serve veterans. 
We approached local banks for loans and approached city councils for 
site approval. It took an additional 3 years of persistence before 
finally we were able to secure VA Homeless Provider Grant and Per Diem 
funding. During those 3 years, we kept the doors open by securing 
funding from anyone who would listen. We begged at veterans 
organizations throughout the area. We called our local, state, and 
Federal officials telling them of our situation and our mission. We 
accepted donations of food and other supplies from individuals and 
local businesses.
    I believe that a portion of our dedication is the result of coming 
home from Vietnam to, at best, inadequate and poor care. We were 
committed then, and are committed now, to seeing that what happened to 
the returning Vietnam era veteran will not happen to others. It is our 
determination to hold fast to the mission that all fellow veterans will 
receive the care that they so courageously earned, and that they 
deserve to their final day.
    TLS is a small rural program presently serving 14 veterans at any 
one time, and soon to be expanded to serving 21 veterans. We are 
located approximately eight miles from the suburban sprawl of Chicago, 
in a small town of less than 600 people. Our priority is to serve the 
veterans from McHenry County and surrounding counties. We also serve 
veterans from all over the Chicago area.
    The chronically homeless men and women we serve often have serious 
health issues. Their health concerns are varied and many. Generally 
though, their health problems are the result of abuse of their bodies 
and lack of health care. Many abuse alcohol and drugs and often go 
without food for long periods of time or have diets high in sugar, 
cholesterol and fat. Furthermore, the environment they live in often 
exacerbates health care problems. All too often, our veterans have been 
battered in attempts to steal their food or money. Furthermore, 
sleeping outside produces its own damage to the body.
    One such veteran came to us experiencing pain in his left leg and 
having difficulty walking. A cursory examination by our caseworker 
revealed discoloration in his lower leg. Our inability to access our 
local VA outpatient clinic necessitated that we access a local 
physician who was gracious enough to see our veteran for free. Quickly, 
the physician determined that this veteran had gangrene which was due 
to untreated diabetes and a minor injury. This diagnosis assisted us in 
obtaining admission to North Chicago VA Medical Center and eventuated 
in saving the veteran's life by the amputation of his leg.
    This tragic situation was unnecessarily complicated by our having 
no access to our local VA outpatient clinic, which is only 15 minutes 
from our facility. On several occasions, I have contacted North Chicago 
VAMC to encourage them to provide us with access to the local veterans 
outpatient clinic, but each overture has been ``graciously rebuffed'' 
by my being told ``there is no room in the inn.'' All of our veterans' 
primary care, as well as specialty care, is provided in either North 
Chicago VAMC or Heinz VAMC. We transport veterans \1/2\ to 2 hours for 
treatment for even minor health care issues. This causes us significant 
expense in gas, oil, and vehicle repairs as well as untold staff hours. 
The irony is that our veterans were used as part of the justification 
for placing the veterans outpatient clinic in our community.
    The limited resources of TLS are being squandered on transportation 
when it is not necessary. Furthermore, the veteran is unable to hold a 
job because he/she is required to spend 4 or 5 hours to visit 
physicians when medical care is needed. Employers find it unreasonable 
for employees to spend that amount of time off the job for treatment of 
minor health issues. The provision of quality care and the success of 
our mission are in part contingent on our veterans having access to our 
local veterans outpatient clinic. We need slots designated specifically 
for the veterans being served by TLS.
    An additional barrier to securing effective health care to these 
already neglected veterans is the difficulty in accessing dental care. 
Few dentists are available and appointments may take as long as 6 
months to obtain. No restorative dental care is available. Homeless 
veterans come to us with severely neglected teeth and gums resulting in 
pain and tooth loss. Dental infection further impacts already 
precarious health. Plus, the absence of teeth, especially front teeth, 
can cause the veteran to feel self conscious and make finding a job 
especially difficult. I urge Congress and the VA to assist us in 
accessing dental care, especially restorative dental care.
    Let me make a point for clarification here. Our transitional 
housing facility is located in what I have already described as a rural 
community. This site was partly made by choice and partly forced upon 
us. Certainly we needed to address the need and the fact that there are 
homeless veterans in the rural areas of this country. We needed to meet 
the needs of these men and women right where we found them, which does 
not always mean in the big city environment. Also, I need to point out 
that while we sought to locate our facility in various more slightly 
populated areas for the sole purpose of improving access to jobs and 
services for our residents, we were turned down by community after 
community who chose to deny the location of such a homeless shelter 
within their boundaries. Only by securing and rehabbing an old hotel 
outside of any existing municipality were we able to go forth at all.
    Rural programs present unique challenges to effective service 
provision. During a prior call involving my testimony this morning, 
someone suggested that I have my development team gather some data. Not 
only do we not have a development team, we have no development person. 
Each of our staff is responsible for an assortment of tasks and those 
responsibilities are fluid, that is they often change from day to day, 
situation to situation. To the degree that it is possible, we provide 
services onsite because offsite services require the commitment of a 
vehicle and the cost of fuel and a staff member to drive.
    Employment is also a challenge made more difficult by the rural 
area in which we are located. Very few jobs are available in our 
community, and when they become open, they most often are given to 
people from within the community. Accordingly, employment always 
involves travel, sometimes many miles. Few of our residents have driver 
licenses so we have to transport the residents to and from employment 
sites. Occasionally a resident may be available to transport other 
residents, but this is the exception. Similarly, those residents 
attending school often require transportation.
    In spite of these difficulties, we have managed to help our 
veterans find employment. Here are two success stories from just last 
month. Two of our residents moved into permanent housing. One of these 
two has recently reunited with his family and is living with them. He 
has been able to secure his driver license and is presently attending 
college classes. The second veteran is working full time for the first 
time in twenty years. Furthermore, he has been sober for over 2 years 
now. He is living in his own apartment and doing well. Our other 
current residents continue to progress with counseling, substance abuse 
follow-up programs, job training, education and employment while 
developing skills necessary for independent living.
    On any given day, TLS will have a minimum of twelve veterans on our 
waiting list. Our contract with the VA requires that we actively search 
known locations where the homeless frequent in an effort to inform 
homeless veterans of our program and the services available to them. 
The intent is to make our program accessible to those hard-to-reach 
veterans, sometimes found under bridges and in barns. While this is a 
noble thought, it has proven to be impractical at best. Due to the long 
waiting list, it would be 6 months before we would be able to admit one 
of these veterans located in this way. Yes, we could and we do make 
referrals to existing programs and services such as PADS (a metro 
Chicago emergency shelter program), but we are unable to admit anyone 
we find on the street directly into our program.
    For TLS to achieve the VA goal of providing housing for those 
veterans who ``regularly sleep in places not designated for human 
beings,'' it would be necessary for us to have an emergency housing 
component to our program, and this additional component would allow us 
to provide food and shelter for veterans while they wait to be admitted 
to our transitional housing. Furthermore, we would be provided a better 
opportunity to assess their ability and readiness for transitional 
housing and make appropriate referrals to facilitate that readiness.
    TLS is presently expanding our program from 14 to 21 beds. While 
this will serve more veterans, it will not reduce our waiting list. In 
fact, we believe that our waiting list will continue to grow in spite 
of the additional beds. North Chicago VAMC is combining two programs, 
thus reducing their beds available for homeless and potentially 
homeless veterans by 30 beds. PADS and the domiciliary programs at 
North Chicago VAMC will close for the summer in April, significantly 
adding to the number of homeless. Furthermore, as more and more 
homeless veterans are hearing about our success from our graduates, 
more and more veterans are applying for admission. Our capacity should 
be increased to at least 30 beds if we are to begin to meet the present 
needs of homeless veterans in our area alone.
    From the inception of our program, we have understood the 
importance of placing our veterans in permanent housing and providing 
supportive services. The obstacles to successful transition are many 
and daunting for the veteran. Most of them have many years of living on 
the street and being in and out of temporary housing programs. In spite 
of successfully completing our transitional program, they remain at 
risk of returning to homelessness during their first year in permanent 
housing. Successful transition to permanent housing depends in part on 
the veteran maintaining a relationship with TLS. We encourage the 
veteran to continue to participate in the programs and groups he was 
participating in when he graduated. We encourage his continuation with 
outpatient substance abuse and mental health care. Furthermore, we 
continue to provide case management services to the veteran during this 
time of vulnerability. All of these services are provided by TLS with 
no financial assistance from the VA or any other funding source. The 
only financial support TLS receives for assisting with permanent 
housing comes from the Disabled American Veterans Foundation and that 
funding goes to the veteran for security deposits, utilities, household 
items, and the first month's rent. The monies we receive annually from 
the DAV support only FOUR veterans transitioning to permanent housing 
during that 1 year period.
    As our program continues and grows, we will have an ever increasing 
number of veterans in permanent housing, and we will be providing 
services to this population. Soon, our resources, already stretched to 
their maximum limits, simply will be unable to be stretched far enough 
to provide the support services so desperately needed. Not providing 
these services is not an option as many of our grants are driven by 
providing these very services. I strongly suspect that the lack of 
these services will threaten the success of our veterans. We encourage 
Congress to authorize a specific funding stream for the aftercare and 
permanent housing of veterans graduating from transitional housing.
    I would be remiss if I did not mention the soldiers returning from 
conflicts around the world. These men and women are the future of our 
great nation. While I believe that many of them will become future 
leaders, I am greatly concerned that many will succumb to the same fate 
as those I have worked with from the Vietnam era, Korean conflict, and 
WWII. I am already providing counseling for some of these troubled 
young people as they return from Iraq. While we have yet to admit a 
veteran from the Iraqi war into our homeless program, we have served 
several Gulf War veterans. I am presently providing psychological 
services in my practice for four veterans recently returned from Iraq. 
Psychological and substance abuse problems can and often do lead to 
homelessness. All too often, the neglect of these issues becomes a 
chronic problem for the veteran and results in homelessness. While the 
VA has displayed a willingness to look at this concern, and Congress 
has provided additional funding, my experience to date is that we are 
ill prepared to address the sheer quantity of veterans who will need 
treatment. Furthermore, many of the professionals who have experience 
addressing these issues are retiring from the VA. The resource of 
professionals experienced in dealing with Post Traumatic Stress 
Disorder and related problems is dwindling. A reduction of professional 
staff familiar with the psychological and substance abuse problems 
caused by war trauma will greatly threaten the continuation and success 
of programs provided to heal the veterans of today's wars.
    Most of the pre-Gulf War veterans were men, so most of our homeless 
population of veterans, thus far, has been made up of men. The veterans 
returning today are men AND women, presenting problems we have not had 
to deal with before. Our facility and other homeless facilities are 
going to have to be prepared to deal with men, women, and possibly 
children of these veterans. This fact presents an entire new set of 
problems for which we are unprepared at this time.
    Let me conclude by urging the VA and Congress to make every effort 
to prevent our returning soldiers' problems from becoming chronic to 
the degree that these brave men and women are at future risk of 
homelessness.

    Chairman Craig. Now, let us turn to Tim Cantwell, Manager 
of Cloudbreak Development, Inglewood, California. Tim, thanks 
for traveling all the way out.

   STATEMENT OF THOMAS R. CANTWELL, JR., MANAGER, CLOUDBREAK 
             DEVELOPMENT, LLC, INGLEWOOD CALIFORNIA

    Mr. Cantwell. My pleasure. More than 14,000 homeless 
veterans have been placed in service-enriched housing since we 
opened our doors the end of 1993, from Hawaii, at Barbers Point 
Naval Air Station in the west, base closure process and 
property obtained from DOD by Honolulu VA Medical Center, 
leased to us for 50 years, through to a service-only center in 
VSN3, New York City, tonight we have over 2,000 beds of 
service-enriched housing for homeless veterans in six States 
and the District of Columbia.
    Cloudbreak Development is a for-profit specialized need 
housing developer for homeless veterans. It focuses on the 
siting and entitlement process through local cities for gaining 
approval to place into service a scale project for homeless 
veterans. These companies finance, design, manage, build, and 
deliver these facilities for residences and for services.
    The United States Veterans Initiative is a 501(c)(3) 
nonprofit formed specifically to provide services for homeless 
veterans. Together, we are known as a collaborative called U.S. 
VETS.
    Annually, we serve more than 10,000 homeless veterans. 
Seven sites are VA Grant and Per Diem or Per Diem only 
supported, with about 600 beds. The other 1,700--it is almost 
700 beds--the other 1,700 beds are supported through a variety 
of means, including HUD, Department of Labor, and AmeriCorps. 
HVRP supports seven of those sites directly. We place in 
employment over 1,000 veterans each and every year at an 
average wage of $9.51 per hour. There are tables in the sheet 
that will show you by site the number of beds and the dollar 
placement per hour for the employment activities.
    Eighty-four percent maintain their sobriety in the VA Per 
Diem supported beds. Fifty percent of those that relapse return 
to treatment. Eighty-five percent transitioned from VA Per Diem 
beds to long-term service-enriched housing. Eighty-one percent 
statistically obtained employment within 90 days.
    At Cabrillo Savannah Naval Housing, formerly in Long Beach, 
we designed and delivered and operate in conjunction with 
Century Housing Corporation what would be a 921-bed facility 
for homeless veterans, families, and youth. Currently, 750 
reside in that site. The General Plan Amendment, zone change, 
use permit, and multiple tract maps were what was required in 
order to deliver that. There is over $40 million in private 
capital invested in that.
    All of our sites operate within a self-determined, case 
management, full accountability modality, and I think that you 
will find that virtually all of the members of NCHV, all of 
those community-based service providers, subscribe to that 
model.
    The combining of NVRP, HUD, AmeriCorps, State, county, 
city, and private funds have allowed the creation of many 
specialized programs. On-campus mental health clinic, I second 
what Alan was saying. I don't know the specifics of the 
situation. We should encourage the VA to make on-campus 
placement with staff. Specialized trauma units for female 
veterans have been started underneath these programs. 
Compensated work therapy of the VA is integrated at every turn 
where it is appropriate and makes sense and is available, and 
it is not available everywhere.
    Everywhere, I think it is safe to say, community-based 
providers link with the HVHC programs of the VA through 
outreach for crisis intervention and treatment where it is 
appropriate. Outpatient and day treatment hospital programs are 
linked and coordinated with the VA. VASH programs, where they 
are available, are linked for long-term permanent housing with 
supportive services. It works.
    In 1996, the general consensus in L.A. was that there were 
80,000 homeless individuals on the street. Twenty-four to 
27,000 of those were estimated to be homeless veterans. In 
January 2006, the greater L.A. count for one night on homeless 
showed there were 88,000 homeless individuals on the street. 
This is the good news. Eighteen thousand of them were homeless 
veterans, so you have a reduction in percentage of the whole 
and in absolute terms.
    There is a great deal more to do. I second what Michael 
said. At every single one of our sites, we are seeing Iraqi war 
vets, but this Committee should take great comfort in knowing 
that a concentrated effort of service delivery with beds has a 
result. In 1993, there were only 69 veteran beds in L.A. Today, 
there are over 2,000 beds for veterans in L.A., and you can see 
what the impact is. It has an effect, a difference.
    Four points. Authorize, to the fullest extent possible, the 
VA specialized programs for homeless and HVRP. We encourage the 
notion that NCHV is placed forward, that you set a floor of 
345,000 with a fixed percentage of the VA health care budget to 
assure that these programs will be funded.
    Two, simplify. The lowest cost per day in VHA's inpatient 
system is domiciliary care. I think we could all know that. It 
is over $150 a day. Contracted substance abuse from the VA is 
always something averaging more than $50 a day. In some 
locations in Hawaii, it is well over $100 a day. If we get a 
cheap motel in a soft market, it costs you $45 a day without a 
nickel's worth of services, much less food, case management, 
legal services, crisis intervention, relapse prevention, job 
development and placement. Thirty-dollars per day is the Per 
Diem rate, new to the State home. Set that as a Per Diem rate 
and let us simplify it. Let us make it a payment for services 
and measure outcomes. You can measure the outcomes. We don't 
need to squabble over whether or not that $30 a day went hither 
or yon. It is a deal and a half.
    Second, or third----
    Chairman Craig. You only get one more.
    [Laughter.]
    Mr. Cantwell. I only get one more. OK. I will be very quick 
with it. Clarify. Clarify. Everyone knows that none of this can 
be done with any one funding stream. It takes all of the 
Federal agencies and every nickel that you can garner together 
from State and local agencies. By very design, it is intended 
that these activities are coordinated, leveraged together to 
stitch--and this is important--we have a fragmented service 
delivery system funded by a fragmented Federal program. Those 
have to be blended together into a seamless service delivery 
for the homeless veteran we are trying to serve. The outcome 
has to be the integration of that veteran to his highest level 
of independence.
    This Committee needs to clarify its intent for Congress to 
collaborate in everything and be redundant in nothing and 
clarify that these funds can be used for that purpose, 
leveraged and combined together to do that service delivery.
    And last, seize the opportunity. Seize the opportunity. I 
believe that it is the obligation of private business to 
support a healthy community. It should be engaged, the private 
sector, in delivering and assisting this needs population. 
Well, so much, so more that the Government should do that, as 
well. When faced with base closures, the CARES process, for 
every opportunity that results in a homeless veteran activity 
of scale, there are hundreds that are frustrated and denied. 
Right here in Washington, DC, we are watching that happen and 
those of you on the Armed Services Committee, we would love to 
talk to you about the Old Soldiers' Home.
    With that, we thank you very much for this opportunity.
    Chairman Craig. Thank you very much.
    [The prepared statement of Mr. Cantwell follows:]

        Prepared Statement of Thomas R. Cantwell, Jr., Manager, 
                         Cloudbreak Development

    U.S. VETS is a collaboration primarily between the Cloudbreak 
Development family of companies owned by Cantwell-Anderson, Inc. (a for 
profit real estate developer) and United States Veterans Initiative (a 
nonprofit homeless veteran service provider). Today, we collectively 
operate service enriched housing facilities for over 2,000 homeless 
veterans (694 of which are Per Diem beds) in nine locations (7 sites 
are Per Diem and HVRP supported) throughout the country, and services-
only programs in two additional locations. With property in some stage 
of development we anticipate total housing capacity to approach 4,000 
veterans.
    An alarming new homeless veteran population is surfacing. In 
virtually all of our sites we are seeing Iraqi war homeless veterans. 
Disturbingly, many of these mostly able-bodied young men are clearly 
disoriented. Incidence of PTSD is rampant and we suspect what we see 
today is but the tip of the iceberg.
    Operating housing in Hawaii, California, Nevada, Arizona, Texas, 
and Washington DC, a GPD service center in Houston, and an Americorps 
program in VSN 3 (New York City area and New Jersey), U.S. VETS serves 
more than 10,000 individual veterans each year, placing more than 1000 
annually in jobs. The attached Exhibit A ``U.S. VETS HOUSING PROGRAMS'' 
detail beds and average job placement wage by location.
    Beginning with one site in 1993, U.S. VETS has housed over 14,000 
homeless veterans. We measure outcomes and they are remarkable. This 
itself a testimony to the fundamental commitment of the vets we serve 
and the coordination with the existing community care system in which 
we are located including the attendant VHA system. When placed in our 
VA Per Diem and HVRP programs the following tables (for Westside 
Residence Hall in Los Angeles) show you both a 1-year set of objectives 
as well as results by year 2000-2005:
    <bullet> Table #2 shows that for 2005 approximately 84 percent 
maintained sobriety, of those relapsing 50 percent returned to 
treatment.
    <bullet> Table #3 shows that for 2005 approximately 85 percent 
transitioned from the VA Per Diems programs to long term housing.
    <bullet> Table #4 shows that for 2005 over 80 percent remained in 
that housing for more than 6 months.
    <bullet> Table #5 shows that for 2005 approximately 81 percent 
obtained employment within 90 days.
    <bullet> The U.S. VETS HOUSING PROGRAMS Table shows an average wage 
placement rate of $9.51 per hour.
    At the former Cabrillo Savannah Naval Housing Base we first 
acquired control (thru the 1994 base closure process) then conceived, 
planned, entitled, developed and have managed through to delivery and 
operations a Residential Planned Community for homeless veterans, 
families and youth. With financing primarily from Century Housing 
Corporation and tax credit equity from John Hancock Realty (aggregating 
$40M), the development is now housing over 500 veterans and more than 
250 women and children in specialized family programs run by Catholic 
Charities, Salvation Army, New Image, 1736 Family Crisis Center, and 
Changing Spirits (a Native American Indian Treatment program), a child 
care center, homeless transitional school (Long Beach Unified), on 
campus college teaching (Long Beach City College), and a Long Beach 
VAMC substance abuse clinic. With active new development under way the 
full 921 beds and the nearly 80,000 square feet of commercial education 
and training services space approved through the city of Long Beach 
entitlement process in 1998 (General Plan Amendment, Zone Change, Use 
permit, and multiple tract maps) should be achieved within the next 5 
years.
    All our sites operate within a self determined, case managed, full 
accountability modality. The VA Grant and Per Diem and Per Diem Only 
programs regularly combined with HVRP, HUD, Americorps, State, County, 
City and local private funds have allowed us to create a specific 
Fathers Program for veteran fathers with dependent children, a program 
for veterans with High Barriers to employment, the largest female 
veteran program in the country with a special unit for sexual trauma 
victims (Long Beach VAMC), several dually diagnosed programs for 
chronically homeless mentally ill veterans, and a special needs 
Critical Time Intervention effort (Houston VAMC). Westside Residence 
Hall has an on campus Mental Health Clinic (West LA VAMC) that provides 
crisis intervention and case management to veterans not in the Per Diem 
supported beds. The VA Compensated Work Therapy programs are actively 
engaged with our veteran residents for initial stabilization when 
appropriate and in locations where it is available. Everywhere we link 
with VA outreach from the HVHC and coordinate with their VASH programs.
    It works. In 1996 the general consensus homeless estimate that on 
any given night for the streets of LA County was around 80,000 
individuals and of that 24,000-27,000 were estimated to be veterans. In 
2005, The Los Angeles Homeless Services Authority's Greater Los Angeles 
Homeless Count released in January 2006 indicates there are now more 
than 88,000 homeless individuals on any given night but of those only 
18,000 were veterans. This is a reduction in both absolute and 
percentage terms. While there are flaws in comparing estimate to 
actual, the fact is that in 1992 there were only 69 beds across all of 
LA's shelter system for vets, and today, there are nearly 2,000. 1,200 
of these are supported by VA Per Diem dollars. U.S. VETS provides 
1,000, or 50 percent of the total veteran specific beds, and 312 (25 
percent) of the VA Per Diem supported beds.
    We believe that the ability of the LA system to place a motivated 
homeless veteran into an appropriate setting on a same day basis, has 
contributed to a reduction in the number of homeless veterans. Clearly 
the carefully woven effort in LA is having an impact. The hand up not a 
hand out philosophy is proving its worth. The coordinated effort of the 
Greater LA VAMC system and the Community Based Service Providers are 
chipping away at the problem.
    LA still has the highest homeless veteran population in the 
country; so much more is to be accomplished. However this progress 
should give this committee great comfort and satisfaction.
    Authorize. Keep the specialized programs of the VA and DOL 
authorized and funded to the fullest possible extent. NCHV has 
suggested funding levels by program which we support. Furthermore we 
join them in urging you to establish a specialized homeless program 
specific purpose account within VA medical services appropriation and 
ensure that of such sums appropriated annually for VA medical services, 
the greater of a fixed sum of $345,672,000 or 1.26 percent of the total 
medical services appropriation be reserved for specialized homeless 
programs.
    Simplify. The lowest cost per day of inpatient care in the 
veterans' health care system is their domiciliary operations of at 
least $150 per day. Most VA contracted substance abuse treatment 
programs exceed $60 per day some are over $100 per day. Surely it is 
safe to say that if a homeless veteran provider is delivering beds 
scrutinized by VA life safety inspections, meals approved by a VA 
dietician, and services that may include substance abuse treatment, 
case management, job placement, and life skills development, it's safe 
to say that's worth at least $30/day. One can't rent a low end hotel 
room for less than $45 per day except in the softest of markets . . . 
much less with food and services of any kind. Right now, community 
based providers are spending scarce time and resources to demonstrate 
their need for $30 per day. If the provider is successful in getting 
additional funding from agencies or corporations, they are required to 
reduce their Per Diem payment accordingly, thereby assuring that the 
provider can never increase its capacity to do anything. Simplify the 
process and structure the Per Diem payments as a fee paid by VHA set at 
the current State Home Domiciliary rate! Look to the VA monitors to 
review the quality of services delivered pursuant to the contract 
developed following the grant application award. Measure outcomes . . . 
it can be that simple.
    Clarify. The point is, it works! How? Because we have leveraged and 
combined funds from DVA, DOL, HUD, and CNS to provide housing, 
treatment, training and employment, and a variety of supportive 
services . . .
    Taxpayers have invested lots of resources in trying to address the 
homeless issue, and specifically the homeless veteran issue. There has 
been an underlying presumption that there have been a variety of 
resources available through HUD, VA, DOL, and HHS that could be 
accessible for providers serving homeless veterans. In fact Congress 
saw fit to increase funding to many of these programs. An underlying 
mandate came with this funding, that they would be leveraged and 
combined with other available Federal and local resources to take the 
otherwise fragmented service delivery and stitch it into a seamless 
delivery for the homeless veterans we are targeting. The creation of 
the Samaritan funding for chronically homeless is based on the idea 
that these funds should be used together and leveraged to create the 
greatest possibility of success for the hardest to serve populations.
    The Interagency Council on Homelessness is charged with being sure 
that Federal agencies are coordinating efforts to end homelessness! We 
should be combining all Federal, state and local resources to get the 
best possible service delivery for these men and women who have served 
their country. No one agency can fund all these costs. Surely, it is 
the congressional intent that we collaborate in everything and are 
redundant in nothing.
    While everyone talks about collaborating and coordinating funds and 
services, and we're told the best programs do that, there appears to a 
lack of clarity on whether these VA program funds can be used to 
leverage or match other Federal funds to assist homeless veterans. This 
committee should clearly provide that these funds can be used for this 
purpose.
    The following tables are standard objectives that are reviewed at 
each U.S. VETS site to measure program outcomes and Veteran successes.
    An example Objective Outcome Measures is provided from U.S. VETS-
Los Angeles.
Table 1. Veterans in Progress Program Objectives
Table 2. Sobriety Maintenance
Table 3. Transition to Long-Term Housing
Table 4. Housing Stability
Table 5. Job Placement

[GRAPHIC] [TIFF OMITTED] T8175.001

[GRAPHIC] [TIFF OMITTED] T8175.002

[GRAPHIC] [TIFF OMITTED] T8175.003

[GRAPHIC] [TIFF OMITTED] T8175.004

[GRAPHIC] [TIFF OMITTED] T8175.005

[GRAPHIC] [TIFF OMITTED] T8175.006

    Chairman Craig. We have been joined by Senator Salazar. 
Senator, we are expediting this morning because of those 
stacked votes, and if you have an opening statement, we would 
ask that you make that a part of the record.

                STATEMENT OF HON. KEN SALAZAR, 
                   U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you, Mr. Chairman. I do have an 
opening statement and am equally concerned with you and 
Chairman Akaka and the Members of this Committee because of the 
number of homeless that we have in our State, and thank you 
very much.
    Chairman Craig. Thank you very much.
    [The prepared statement of Senator Salazar follows:]

   Prepared Statement of Hon. Ken Salazar, U.S. Senator from Colorado

    Good morning. Thank you, Chairman Craig and Senator Akaka for 
giving the Committee this opportunity to address the issue of 
homelessness within the veterans' community.
    Too often, our veterans return home without the support necessary 
to meet their basic needs. VA estimates that a half million of our 
nation's bravest men and women experience homelessness in any given 
year, and that veterans make up thirty percent of the entire adult 
homeless population in the U.S. It is an absolute tragedy that these 
veterans--who have given so much to our country--cannot expect their 
government to give them the support they need when it comes to 
fulfilling the basic human need for housing.
    Homeless veterans represent the most vulnerable segment of our 
veteran population, and helping them should be one of our highest 
priorities. In my home State of Colorado, about seventy percent of 
homeless veterans have been dually diagnosed with both substance abuse 
and mental illness. We cannot even begin to fix the problem of 
homelessness until we address these medical issues and provide our 
veterans with the treatment they need to overcome them.
    Three years ago, the city of Denver created a Commission to End 
Homelessness, which was tasked with developing a 10-year plan to end 
homelessness in the Denver area. In late 2004, they released their plan 
called Denver's Road Home. I believe this program represents a 
promising opportunity for VA to increase the involvement of homeless 
veterans in mainstream services, and I look forward to working with VA 
to ensure we take full advantage of it.
    I am still concerned, however, that housing resources for homeless 
veterans are insufficient. Colorado currently has no permanent 
supportive housing projects dedicated to homeless veterans. This puts 
veterans in my home State at a serious disadvantage when it comes to 
securing adequate housing, and I find this alarming.
    In addition, we must not overlook the women who make up about 5-10 
percent of the homeless veterans population in my state. Their needs, 
though often different from those of the majority of homeless veterans, 
are just as urgent and our efforts to address them should be just as 
vigorous.
    Finally, although the vast majority of Colorado's homeless veterans 
are located in the Denver metropolitan area, we must not overlook the 
challenges faced by homeless veterans in rural areas of our country. I 
know that some of our witnesses will address that issue today, and I 
look forward to discussing ways we can improve services for that 
vulnerable population.
    Again, I want to thank Larry Craig and Danny Akaka for holding this 
hearing, and I want to thank all of our panelists for coming here today 
to discuss the important issue of helping veterans--who have sacrificed 
so much--with their most basic needs.
    Thank you.

    Chairman Craig. Michael, I will come back to you and I will 
ask a question of each of you, if I could, and we will see if 
we can move through a round of questioning before those votes 
start, at least of this panel.
    In your testimony, you have asked that the eligible 
population for HVRP services be expanded to include veterans at 
imminent risk of homelessness. I agree with you that 
homelessness prevention is obviously a laudable goal. Can you 
give the Committee a real-life example of what you believe is a 
veteran in imminent risk of homelessness? We are trying to 
understand what these definitions mean and at what point do 
certain actions trigger.
    Mr. Blecker. Well, I mean, you have a lot of Iraq war vets 
who (A) don't want to admit that they have problems, and (B) 
it's really going to be a big challenge to outreach to them in 
a meaningful way. They are living on couches of their friends. 
They are at imminent risk of being homeless, depending on the 
definition. Essentially, they are one paycheck away from being 
homeless.
    You come out of the military and suddenly you are under 
enormous financial strain. You lose your housing allowance. You 
lose your source of income. You lose your health insurance, et 
cetera. So returning soldiers are under tremendous financial 
strain and I would say there are quite a few Iraq war vets 
right now who are at grave risk of being homeless.
    Again, this is sort of a way--I mean, HVRP, I would like to 
double the pot. I would like to see $50 million for these 
services, as I think that was authorized, but hasn't been 
appropriated. That is a meaningful level. Right now, we have 
less than half that. If we increase that pot again, it makes a 
big difference. I mean, for just $2,000, a homeless veteran has 
a placement. The Grant and Per Diem Program is very cost-
effective.
    Chairman Craig. Thank you.
    Mr. Belcher. Senator, I might add that just last week, I 
received a call from our local Veterans Assistance Commission 
asking us for some help with an Iraqi veteran and his two 
children. They were living in a basement and they needed--he 
had lost his job and he was going to be homeless in the near 
future, and we can't serve a family. If we were able to help 
him with a job, give him some support, that would make a huge 
difference with this fellow and his children. Thank you.
    Chairman Craig. Alan, as a small provider in, I guess, 
rural suburbia----
    Mr. Belcher. Yes.
    Chairman Craig [continuing].--you spoke of your concerns. 
By what definition do you not have access to the CBOC in the 
community?
    Mr. Belcher. When we take a veteran into our program, the 
CBOC has a waiting list of 18 months to 2 years. We take a 
veteran into our program, we provide the housing for him, 
hopefully, it is not going to be that long. We may find a job 
and placement within a year. He can be on the waiting list, but 
during the time that he is in our program, he will not have 
access to it. He will not be able to use it. He can't even get 
in the front door. I have called over at North Chicago on 
several different occasions trying to say, we need some slots. 
We need to----
    Chairman Craig. So you are not talking of a slot by name, 
but a generic slot----
    Mr. Belcher. A generic slot----
    Chairman Craig [continuing]. So you can access it?
    Mr. Belcher. Yes, because by name, it is not possible to 
get it by name because of the waiting list they have.
    Chairman Craig. All right. Tim, obviously, your record as 
it relates to where you were in 1993 to where you are today is 
a phenomenally positive one and a great comment. You expressed 
yourself in a variety of ways as it relates to programs. What 
single combination of efforts do you owe the success of your 
organization?
    Mr. Cantwell. It is not just our organization. To begin 
with, I think it demonstrates that our veteran population is 
capable. It is more educated, often, than the general homeless 
population. It has performed before, at least once in their 
life. Now, there is a whole bunch of carnage that goes along 
with that, but that is the beginning part.
    And second, the coordination and design on a community by 
community basis--Mr. Blecker alluded to it. Every setting is 
different. The paradigm in Honolulu and Oahu and all the 
islands is very different than the paradigm in Houston, Texas, 
or Las Vegas, Nevada. Gaming and gambling addiction is a big 
problem in Las Vegas. Crack cocaine and heroin is the drug of 
choice in Los Angeles. Alcoholism in Houston, Texas. It varies.
    So the coordination of all of what is there in the existing 
care system, along with the specialized programs offered from 
VHA, all of them for homeless, and the Department of Labor, 
HVRP and the Workforce Development Programs in various States, 
together with a local vision of what this thing should look 
like, private bank financing for leverage, tax credit equity 
for equity, all of those parts together, it is stitching it 
together into one thing with one clear, strong vision.
    Chairman Craig. Thank you.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    My question is on looking at targeted services. We know 
that about over half of the homeless veterans are minorities. 
My question to you is, what can agencies involved in 
homelessness prevention, what can they do to provide more 
targeted services to certain sub-groups of homeless veterans, 
and in particular the minority veterans? Let me ask Mr. Mike 
Blecker to please first respond.
    Mr. Blecker. I think the definition of being community-
based tells you that you are comprised of your community. 
SWORDS and other community-based organizations work with 
outreach workers. It is helping vets. Oftentimes our workforce 
is comprised of formerly homeless vets themselves. That was 
actually a guiding light of some of the early VA programs, peer 
support. Minorities are also part of the community-based 
organization. That establishes your rapport. That allows you to 
do the outreach. That allows you to reach people in a 
meaningful way. It is very specialized. That is what a 
community-based organization brings to the table.
    Senator Akaka. Mr. Belcher.
    Mr. Belcher. I would also echo that. We serve the greater 
Chicagoland area. In spite of the fact that we are a rural 
program, we also have referrals that come from--or many 
referrals that come out of Hines Hospital. So we do serve--a 
fairly large percentage of our population are minorities. I 
think at present, out of the 14 residents, we have 4 African-
Americans. We try very hard to be sensitive to the issues that 
they bring to the table and we will, when we are able to, hire 
staff that are African-American.
    Senator Akaka. Mr. Cantwell.
    Mr. Cantwell. Each of the sites that we operate in look 
exactly like our community. In Hawaii, we have a huge number of 
Native Hawaiians on property involved in the management and in 
the delivery of those services and the beneficiaries of those 
services.
    The specialized programs within the VA, from the Grant and 
Per Diem Program and Per Diem Only Program, is actually very 
responsive to specialized niche groups. I would suggest, as 
before, that you authorize and help to see that appropriated 
dollars go to these specialized programs for HVRPs and for VHA.
    I think we are beginning to see some progress with HUD. 
There have been struggles even in some States with State 
Attorney Generals saying that delivering veteran-specific 
activities, it is discriminating and you can't do it. We only 
recently accomplished getting a reversal in the State of 
California.
    So sub-populations within the homeless veteran population 
is advanced by furthering dollars that are specific to veterans 
and making them available for the creation of programs as they 
are necessary to meet specialized needs.
    Senator Akaka. Thank you. Mr. Alan Belcher, in your 
testimony, you note that it took your organization 3 years to 
receive homeless provider Grant and Per Diem funding, and that 
was also discussed by Mr. Cantwell. Can you take us through the 
process you went through to receive this grant? Are technical 
assistance grants helpful to providers like yourself in 
expediting this process? What suggestions do you have to help 
improve the process based on your experience?
    Mr. Belcher. The grant process for us, once again, we start 
from the point where we are a very grassroots organization with 
very few--this was a board of directors, primarily myself, who 
was writing this grant. It is an arduous task to write it and I 
did not have the experience that maybe some other groups would 
have with writing Federal grants.
    Last week, I received a call and was involved in several 
calls and somebody suggested to have my development team 
produce the written document that you received. Well, not only 
do I not have a development team, I don't have a development 
officer. So it boils down to me and maybe one of the staff 
members coming to the table and writing some of this material. 
There is a lack of time. There is a lack of money. It makes it 
very difficult.
    In addition to that, I went to see a person at Hines 
Hospital who is very familiar with the process. I asked her, 
``What do I do to get this grant?'' She reviewed it, spent a 
lot of time with me, and made many suggestions, and the 
following year it was funded. The main suggestion that I was 
given, though, was don't be so honest. You don't talk about 
problems that you have. Talk about the solutions you are 
providing. I was, frankly, being a little too honest in the 
process. So that is what I have gone through.
    Senator Akaka. Thank you. Thank you very much.
    Mr. Chairman.
    Chairman Craig. Thank you very much.
    Senator Obama.
    Senator Obama. Thank you very much, Mr. Chairman. Again, 
thanks to all of you for being here.
    I think this is obviously an absolutely critical issue, and 
one of my main concerns is that we just don't provide enough 
funding, as I think has been mentioned, for the HVRP or the 
Grant and Per Diem Program. Each year, these programs have been 
funded well below their authorized levels. What I am interested 
in is finding out how that manifests itself on the ground. How 
often would any of you have to turn away veterans who could use 
these services because of lack of resources? You have mentioned 
some of the issues that you are all confronting, but can you 
give us a concrete sense of whether you are turning away folks 
or you are simply not able to do outreach to people who might 
otherwise be served?
    Mr. Blecker. Well, I will start. It is just a dreadful 
situation. In San Francisco, there are 56 Grant and Per Diem 
beds for at least 1,500 homeless veterans. In Atlanta, I think 
there are 40 Grant and Per Diem beds for 2,000 homeless 
veterans. It is dramatic.
    Senator Obama. Can you repeat that. Forty-five----
    Mr. Blecker. Forty or 45 Grant and Per Diem beds for, I 
think a sound number is approximately 2,000 homeless veterans 
in Atlanta.
    Senator Obama. OK.
    Mr. Blecker. In San Francisco, there are 56 beds, perhaps 
more, for at least 1,500 homeless vets. That is the dimension 
of the problem. There are far more than 10,000 homeless vets--
yet there are not quite 10,000 beds. We are trying to struggle 
to get 10,000 beds. There needs to be at least twice that many. 
Sometimes, it is difficult to even incentivize the operators 
because the way the payments work. First of all, it takes 10 
accountants to figure out how to count what is income and what 
is disallowed and what is allowable versus disallowed and it 
just completely overwhelms your organization. So there are 
problems like that. It even serves--if you add another bed that 
is not in the program, it can also reduce your Grant and Per 
Diem rate. So I think the rates need to be reasonable so that 
the operators can work with them, and that is a real problem.
    But, of course, we all know that there is a shortage of 
affordable, permanent housing. It is a crisis and it is so true 
with veterans.
    Senator Obama. Does anybody want to add anything?
    Mr. Belcher. Yes. I could just add a couple of things. 
First of all, part of our contract is that we search these 
sites where homeless veterans can be found. Well, actually, it 
is kind of cruel for us to go out there and search these sites 
under bridges and in pad sites and things like that because if 
we find somebody, we can't serve them. We can tell them, we 
will put you on our waiting list and when we reach the top of 
our waiting list in 6 to 9 months, then we will take you in. 
That is clearly cruel.
    Clearly, we need more beds, and I think that we have the 
willingness of these veterans groups throughout this country to 
make that happen and full funding would be very much 
appreciated.
    Senator Obama. In the time remaining, I want to talk about 
wrap-around services. I think all of you mentioned the fact 
that a lot of the issues that confront homeless veterans have 
not only to do with unemployment, the economic hardship, but 
are also connected to mental health and substance abuse issues. 
I am just curious about the degree to which you guys are able 
to provide follow-up services. My assumption is for a lot of 
homeless veterans, they may come in for a while, slip out of 
the program. What kinds of after-care services are you able to 
provide to GPD and HVRP recipients?
    Mr. Blecker. I will start. I think it is very unique. Each 
program has a certain level of resources they work with and 
it's not what you have, but how you collaborate with your 
partners. None of these CBOs could possibly do what they are 
doing without incredible partnerships and collaborations. They 
work with their community. In fact, probably the definition of 
a case manager is somebody that hustles their rear end off to 
find out what else is out there. And so our relationship 
doesn't begin and end when somebody is in a program or out of 
the program. We are there and we have been there for as long as 
the veterans need us, and all the providers know that.
    A really profound point is that non-VA services really 
underserve veterans. In other words, mainstream employment and 
training services, mainstream mental health services, they 
anxiously triage vets out of their system because they are all 
tapped out. They triage them out.
    Senator Obama. Why would they do that?
    Mr. Blecker. Because they assume and they wish to believe 
that the VA will take care of every mental health veteran 
because it is the VA system. There is this lavish separate 
system of care. Why should we strain our resources? In fact, 
there is a conference going on right now, a SAMHSA conference 
for that very purpose, which is to alert SAMHSA programs that 
there is a VA system out there. There is tremendous pressure on 
the current mainstream sources. If you looked at any employment 
and training service in the country, you would see that they 
serve a microscopic number of vets. Vets are dramatically 
underserved by our mainstream employment and training services 
and by our mental health services. That is why we are really 
dependent on the VA and the community-based system of care.
    Senator Obama. Thank you, Mr. Chairman. I know we have to 
go vote.
    Chairman Craig. Thank you very much, Senator, and to our 
panelists, thank you very much. I have additional questions I 
would like to ask. I am going to submit them to you. We would 
love your response. Obviously, you folks are on the front line 
and have a perspective that is very valuable to this Committee 
and to the VA as we sort through these issues. Again, thank you 
very much.
    The Committee will stand in recess, I would like to say for 
no more than about 30 minutes, 35 minutes as we work our way 
through these votes. We are catching the first on the tail end, 
so we will be able to expedite it as much as possible. So for 
the first panel, we will appreciate your patience. Thank you 
very much. The Committee will be in recess.
    [Recess.]
    Chairman Craig. The Committee will come together. Again, 
let me thank you all for your patience. We got deterred longer 
than I thought, and we are still in the middle of votes, so we 
clearly are going to sandwich you all in so that we can get 
your testimony for the record. I am not sure we will have 
anyone else attending, but we will leave the record open for 
any questions that may be asked.
    Let me introduce our last and first panel, Mr. Peter 
Dougherty, Director, Office of Homeless Veterans Programs, 
Department of Veterans Affairs, accompanied by Paul Smits, 
Associate Chief Consultant, Homeless and Residential 
Rehabilitation and Treatment Programs, and Roger Casey, 
Director, Homeless Providers Grant and Per Diem Program; the 
Honorable Chick Ciccolella, Assistant Secretary for Veterans' 
Employment and Training, Department of Labor; and Philip 
Mangano, Executive Director, Interagency Council on 
Homelessness.
    Thank you all, gentlemen, very much. Pete, we are going to 
start with you and we will work our way across the table. 
Please proceed.

 STATEMENT OF PETER H. DOUGHERTY, DIRECTOR, HOMELESS VETERANS 
 PROGRAMS, DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY PAUL 
E. SMITS, ASSOCIATE CHIEF CONSULTANT, HOMELESS AND RESIDENTIAL 
 TREATMENT PROGRAMS, DEPARTMENT OF VETERANS AFFAIRS; AND ROGER 
 CASEY, PROGRAM MANAGER, HOMELESS GRANT AND PER DIEM PROGRAM, 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Dougherty. Thank you, Mr. Chairman. It is my pleasure 
to be here today and I appreciate the opportunity to have both 
Mr. Casey and Mr. Smits here with me in case there are 
questions. Secretary Nicholson, I would like to thank you for 
inviting us to attend and testify at this hearing.
    Based upon what you have heard today, everyone who is at 
this table presently and everyone who has been at the table 
previously thinks that homelessness among veterans should be 
something that is inconceivable in this country and everyone 
believes that we need to do more.
    What are we doing? At VA, we aggressively outreach with our 
own staff and with our partners in communities across the 
country and engage more than 40,000 homeless veterans typically 
on an average year. We see them in soup kitchens, we see them 
in the streets, under the bridges, anywhere and everywhere that 
we can find them. We do this every day. We participate in 
stand-downs and other community outreach events that reach out 
and find more than 20,000 veterans and family members each and 
every year at 100 or more of those events across the country. 
We want those veterans connected not only to VA health care and 
benefits services, but also to the services of other community 
providers.
    We enhanced our performance measures to provide timely 
access to psychiatric evaluations and treatment, engagement in 
treatment programs for substance abuse disorders, access to 
quality primary health care, including residential treatment 
and community housing. VA provides health care and services to 
more than 100,000 homeless veterans every year. Our effort is 
to enhance timely accesses that I mentioned.
    We have in our Compensation and Pension Service a 
relatively new program where we are expediting claims for 
veterans who are homeless. They are very vulnerable. The 
opportunity to get some income support including service-
connected compensation is very important to lift them out of 
homelessness.
    VA has expedited nearly 14,000 claims in the past 2 years. 
Thirty-seven percent of all veterans we have identified as 
homeless who have filed compensation claims have been granted 
awards, and 73 percent of those who filed for pension have been 
given those awards. Those benefits, as I indicated, lift many 
veterans out of homelessness.
    As others at this table will say, we are a very active 
member of the U.S. Interagency Council on Homelessness and we 
are active with a number of other Federal initiatives. We also 
have a significant relationship with our advisory committee, 
who has been very helpful not only in giving us advice on what 
we can do internally and externally--Mr. Blecker, an earlier 
witness, is one of our advisory committee members. They give us 
a lot of good advice as to how we could work with others.
    There are a lot of questions about are we being effective, 
are we making a difference? I think we can say undoubtedly we 
are. Ten years ago, based on the absolute best information we 
had in this country, we believed there were about 250,000 
homeless veterans on any given night in this country. We have 
been refining, and we meet with community providers and 
advocates and service providers across the country. Each and 
every year, we compile an annual report, our homeless 
assessment. We do lots of things with that, but one of the 
things we try to do is to get an assessment of how many 
homeless veterans there are on a given night. We have been 
saying that the number has been coming down. We have been 
reporting that to the Congress. In this year's report, we are 
going to say that we believe that the number of homeless 
veterans on any given night is approaching 190,000.
    But as Secretary Nicholson said when he talked to the 
National Coalition for Homeless Veterans last year, that is a 
reason to continue our investment. We are making progress and 
we are having positive results.
    We work with our friends at HUD and HHS on a collaborative 
initiative that others may talk about, but what that really is 
to provide permanent housing for veterans and other homeless, 
chronically homeless people. We provide case management 
services to the veterans. We are also doing the overall program 
monitoring and evaluation of those sites. The good part, Mr. 
Chairman, is in order to get that funding, you had to pass 
muster with the Department of Veterans Affairs. And 30 percent 
of all the people in that housing are veterans.
    We work closely with our friends at HUD in programs that 
provide case management. That program has been effective, and 
we have over 2,000 veterans who benefit by being in permanent 
housing where VA provides case management services. About 1,000 
veterans are in an initiative that started many years ago under 
President George Herbert Walker Bush in a program called HUD-
VASH. While the number of beds in that program has shrunk, the 
good news is there still are over 2,000 veterans in permanent 
housing being case managed by VA.
    We have a relationship with the Department of Labor based 
on some statutory authority you all gave us a few years ago to 
work on seven pilot projects with veterans who are coming out 
of incarceration. Mr. Chairman, we think, and I am sure 
Assistant Secretary Ciccolella will mention in his testimony, 
that we think this is a very important thing to do because many 
of the veterans that we come in contact with get in trouble and 
run afoul of the criminal justice system. That is a very 
expensive system. We think early intervention will assist 
significantly.
    As everyone knows, the Grant and Per Diem Program is the 
most significant opportunity for us to engage community 
providers. We have been able to access over 10,000 transitional 
housing beds, high-quality beds, the beds of the folks that 
were on your previous panel and testified to. We have over 
10,000. Last year, we were able to finally do something that we 
have made as an internal goal, and that is to get at least one 
operating program in every State, with the States of Maine and 
Alaska recently coming on board, we have now been able to do 
that.
    Over 90 percent of the veterans that we see in those 
programs have a substance abuse or mental health problem. We 
have residential rehabilitation and treatment beds that are VA-
run. We have been adding domiciliary care and other programs. 
We added 500 more beds there. We have now 4,400 beds that are 
available in those VA run programs.
    The good part, Mr. Chairman, is----
    Chairman Craig. Peter, we are going to have to ask you to 
stick to your time as close as possible.
    Mr. Dougherty. Let me just finish up one more thing, then. 
Mr. Chairman, one of the things that we think is probably most 
important to this Committee is how successful are we? We did a 
study of 1,350 veterans who had come out of different types of 
residential treatment programs. A year after discharge, 80 
percent of them were still appropriately housed, including in 
treatment services a year after they left the VA-specific 
program.
    Mr. Chairman, we look forward to answering any other 
questions you may have and appreciate the opportunity to be 
here.
    Chairman Craig. Peter, thank you very much for that 
testimony.
    [The prepared statement of Mr. Dougherty follows:]

 Prepared Statement of Peter H. Dougherty, Director, Homeless Veterans 
                Programs, Department of Veterans Affairs

    Mr. Chairman, Ranking Member Akaka, and Members of the Committee, I 
am pleased to be here today to discuss the Department of Veterans 
Affairs' programs and services for homeless veterans. I am also pleased 
to be accompanied by Mr. Paul Smits, Associate Chief Consultant for 
Homeless and Residential Treatment Programs and Mr. Roger Casey, 
Program Manager, Homeless Grant and Per Diem Program. Thank you for 
inviting us to testify today.
    Homelessness for any person tugs at our conscience; however, for 
those who have honorably served our nation in the military, 
homelessness should be inconceivable. VA's commitment is, and remains, 
ending chronic homelessness among veterans. To meet that goal, VA has 
made, and continues to create, hundreds of opportunities to bring 
together those veterans in need of assistance with the wide range of 
services and treatment VA provides.
    As the largest provider of direct services to homeless people in 
the nation, VA provides health care and services to more than 100,000 
homeless veterans each year. We do not wait for homeless veterans to 
contact us. Instead, we reach out and engaging them in shelters and in 
soup kitchens, on the streets and under bridges--to connect homeless 
veterans to a full complement of VA health care and benefits, including 
compensation and pension, vocational rehabilitation, loan guaranty and 
education services. Approximately 40 percent of the homeless veterans 
we serve each year receive these services because of our outreach 
efforts.
    We continually work to reach and identify homeless veterans and 
encourage their enrollment in VA's health care system. Our efforts 
include timely access to psychiatric evaluations and treatment; 
engagement in treatment programs for substance use disorders; and, 
access to quality primary health care. Our performance measures help to 
ensure that homeless veterans receive comprehensive follow-on health 
care. In addition, it is extremely important that veterans are seen by 
mental health specialists and a case manager.
    We also work very closely with our partners at the Department of 
Labor's Veterans' Employment and Training Service to ensure those 
homeless veterans who want and need employment have an opportunity to 
become productive tax paying members of society.
    With the support of Congress, VA continues to make a significant 
investment in the provision of services for homeless veterans. We 
expect to spend $244 million this year. The President's budget request 
for Fiscal Year 2007 calls for a nearly $20 million increase above that 
level. Services and treatment for mental health and substance abuse 
disorders are essential both to the already homeless veteran and to 
those at risk for homelessness. VA's overall mental health funding 
increased by $339 million this year, and we use those funds to enhance 
access to mental health services and substance abuse treatment 
programs. Increasing access to and availability of mental health and 
substance abuse treatment services is critical to ensure that those 
veterans who live far away from VA health care facilities are able to 
live successfully in their communities.
    Equally important is the work of the Veterans Benefits 
Administration (VBA). The Compensation and Pension Service is striving 
to enhance the timely processing and payment of benefits claims to 
homeless veterans. As a result of VBA's concerted efforts, thousands of 
veterans entitled to benefits receive them.
    As part of VA's efforts to eradicate homelessness among veterans, 
we work in a variety of venues with multiple partners at the Federal, 
state, territorial, tribal and local government levels. We have 
hundreds of terrific community nonprofit and faith-based service 
providers working in tandem with our health care and benefits staff to 
improve the lives of tens of thousands of homeless veterans each night. 
In addition we have more than 4,000 beds for homeless veterans 
available under our domiciliary care and other VA operated residential 
rehabilitation programs.
    We are finalizing a 1-year, follow-up study of 1,350 veterans 
discharged from VA's residential care programs. Results indicate that 
we are achieving long-term success for the well-being of these 
veterans, with four out of five veterans who have completed these 
programs remaining appropriately housed 1 year after discharge. Through 
such effective, innovative and extensive collaboration, VA is able to 
maximize the opportunities for success.
    We firmly believe that the best strategy to prevent homelessness is 
early intervention. As the Committee knows, veterans returning from the 
present conflicts in Iraq and Afghanistan have 2-years of eligibility 
for VA health care at no cost for conditions possibly related to their 
combat service. We believe that this eligibility policy allows our 
clinical staff to identify additional health problems that may, if left 
untreated, contribute to future homelessness among those veterans. This 
policy is the best option to treat those in need today and prevent more 
acute problems later.

              VA'S ADVISORY COMMITTEE ON HOMELESS VETERANS

    Four years ago, Congress established the Advisory Committee on 
Homeless Veterans--our first formal outside advisors. The Advisory 
Committee on Homeless Veterans has recommended a number of ways to 
improve services to homeless veterans. As you know, the members of this 
Advisory Committee possess special expertise and vast experience 
serving homeless veterans. We have implemented many of the 
recommendations made in the Advisory Committee's first three reports 
and are working toward implementation of many others. We look forward 
to the Advisory Committee's next report, which will be reported to 
Congress by early summer.
interagency council on homelessness and federal and local relationships
    VA is an active partner with the nearly all of Federal departments 
and agencies that provide services to homeless veterans. We participate 
in a variety of interagency collaborative efforts to assist homeless 
veterans and continue to actively participate in the United States 
Interagency Council on Homelessness (ICH). Secretary Nicholson is the 
immediate past chair of the ICH, and VA has participated in each of 
ICH's cabinet-secretary level meetings. During the Secretary's tenure 
as chair of the ICH, VA hosted regular meetings of the ICH Senior 
Policy Group. While Secretary Nicholson's term as ICH Chair ended last 
year, VA continues its participation in interagency and collaborative 
initiatives. As Director of the Homeless Veterans Programs, Secretary 
Nicholson asked me to serve as VA's representative to the Council's 
Senior Policy Working Group. These efforts, together with the 
recommendations of our Advisory Committee on Homeless Veterans, have 
brought the level of veteran-involvement in state and local plans to 
end homelessness to an unprecedented level.
    The ICH has worked closely with VA, and has also encouraged the 
development of state and local plans across the Nation to address both 
the needs and services available to veterans. To date, this is 
demonstrating positive results as we increasingly see states and local 
communities include VA employees, state and county veteran service 
officers, Veteran Service Organization members and veteran specific 
service providers in both the planning and implementation of local 
strategies to end chronic homelessness.
    As part of an ongoing initiative, VA has worked closely over the 
last 3 years with the Department of Housing and Urban Development (HUD) 
and the Department of Health and Human Services (HHS) to assist the 
chronically homeless with housing, health care and benefits 
coordination. Under this initiative, funding was provided to eleven 
communities that developed quality plans to house and provide 
wraparound services. As the result of our collaboration, nearly 1,500 
persons have been seen, and nearly 600 persons housed. Thirty percent 
of those receiving services under this initiative are veterans. This 
effort is based on the premise that housing and treating those who are 
chronically homeless will decrease total costs for health care, 
emergency housing, related social services and justice system costs. VA 
is pleased to be a partner in this effort. We are also pleased to lead 
the effort to evaluate this project and look forward to sharing our 
findings with you when they become available.
    Local communities are our front lines--the places where we meet and 
provide services to veterans. For that reason, VA has a long tradition 
of engaging and working with local providers in their communities. VA 
collaborates annually with communities across the United States in 
Project CHALENG (Community Homelessness Assessment, Local Education and 
Networking Groups) for veterans. At regularly scheduled CHALENG 
meetings, VA works with faith-based and community homeless service 
providers; representatives of Federal, state, territorial, tribal and 
local governments; and homeless veterans, themselves. Our meetings and 
our annual reports are designed to identify met and unmet needs for 
homeless veterans, aid in the community effort to aid the homeless, and 
to develop local action plans to address those identified unmet needs.
    CHALENG is integral in enabling VA medical centers and regional 
offices to strengthen their partnerships with community service 
providers. This leads to better coordination of VA services as well as 
the development of innovative, cost-effective strategies to address the 
needs of homeless veterans at the local level. It shows us what is 
being done effectively and what pressing unmet needs remain. 
Additionally, this also helps us to establish, as part of local needs, 
the number of veterans who are homeless on any given night. While there 
are still far too many veterans among the homeless, we are making 
progress, and their numbers are coming down. Ten years ago, based upon 
the best available estimates, there were as many as 250,000 veterans 
among the homeless on a given night. Last year we found there were less 
than 200,000. We will soon publish our 2005 report. This year, we 
estimate the number of homeless veterans on any 1 day will be less than 
190,000, which represents a decline of nearly 25 percent. This progress 
demonstrates to us that this scourge is not unmanageable and that our 
collective efforts are realizing success. We are confident that our 
continued efforts will achieve our goal of ending chronic homelessness 
among veterans.

                     VA INVOLVEMENT IN STAND-DOWNS

    VA's involvement in stand-downs is another avenue by which VA 
continues its collaborative outreach at the local level through 
coordination of our programs with other departments, agencies, and 
private sector programs. Our calendar year 2005 report is not yet 
complete, but we can know from our 2004 report, in addition to our 
decade-long effort to capture data, that last year VA joined in 
approximately 100 stand-down events in most states and the District of 
Columbia. In calendar year 2004, VA, along with hundreds of veteran 
service organization representatives, community homeless service 
providers, state and local government offices, faith-based 
organizations, and health and social service providers, provided 
assistance to more than 19,000 veterans. Of particular note is an 
increase in the number of women veterans, and in the percentage of 
veterans who are women who attended these events. The latest 
information shows that more than 3,000 spouses, overwhelmingly women, 
and more than 1,600 children attended these events. More than 3,000 
more veterans and family members attended these outreach events in 2004 
than in 2003. More than 150,000 volunteers and VA employees 
participated in these events, aiding more than 200,000 veterans and 
family members.

             HOMELESS PROVIDERS GRANT AND PER DIEM PROGRAM

    VA's largest program involving local communities remains our 
Homeless Providers Grant and Per Diem Program. As you are aware, this 
highly successful program allows VA to provide grants to state and 
local governments, and faith-based and other nonprofit organizations in 
developing supportive transitional housing programs and supportive 
service centers for homeless veterans. These organizations may also use 
VA funds to purchase vans to conduct outreach and provide 
transportation for homeless veterans to needed health care and 
employment services.
    Last year, this program achieved one important goal: to authorize 
funding for at least one transitional housing program in each state. We 
did this in part by targeted funding to states that had no or limited 
veteran-specific transitional housing program. We are continuing to 
reach out to tribal and territorial areas to ensure increased 
opportunities for these programs to operate in those locations. Since 
the program was authorized in 1992, VA has obligated more than $300 
million to the program. These funds have helped to develop close to 
10,000 transitional housing beds (of which 78 percent are operational) 
and 23 independent service centers and to purchase 180 vans to provide 
transportation for outreach and connections with services.
    Last fall we offered current ``Per Diem Only'' service providers an 
opportunity to seek ongoing funding for those programs. As a result of 
a Notice of Funding Availability (NOFA), last year we were able to 
offer continued funding to 151 programs with more than 3,200 
transitional housing beds. This effectively keeps many high quality 
programs in place and offers continuation of services across the 
country. Per Diem Only programs are a significant and cost-effective 
way for us to get transitional housing services to thousands of 
veterans each year.

                      TECHNICAL ASSISTANCE GRANTS

    With enactment of Public Law 107-95, VA was authorized to provide 
grants to entities with expertise in preparing grant applications. We 
have awarded funding to two entities that are providing technical 
assistance to nonprofit community and faith-based groups that are 
interested in seeking VA and other grants relating to serving homeless 
veterans. We have awarded grants to the National Coalition for Homeless 
Veterans (NCHV) and Public Resources to aid us in this effort. We are 
hopeful that this effort, which we are evaluating regularly, is helping 
to connect veteran specific service providers to other governmental and 
non-government resources.

            GRANTS FOR HOMELESS VETERANS WITH SPECIAL NEEDS

    VA also provides grants to VA health care facilities and existing 
Grant and Per Diem recipients to assist them in serving homeless 
veterans with special needs (women, including women who have care of 
dependent children, chronically mentally ill, frail elderly and 
terminally ill). We initiated this program in fiscal year 2004 and 
provided special needs funding to 29 organizations totaling $15.7 
million. Additionally, VA is providing funding to 27 VA collaborative 
partners in an effort to provide enhanced services to these veterans.

             GRANTS TO MEET NATIONAL FIRE AND SAFETY CODES

    VA has also awarded grants to existing grantees to assist them in 
meeting national fire and safety codes. VA has offered funding three 
times and awarded a total of $5.36 million for this program. These 
grants have been awarded to all existing transitional housing that 
applied for funding. VA Medical Centers' Fire and Safety Engineers have 
worked closely with existing grant recipients to identify any code 
violations and to estimate the cost of correcting any such 
deficiencies. We believe we have been able to address all requests to 
meet fire and safety needs.

       RESIDENTIAL REHABILITATION AND TREATMENT PROGRAMS (RRTPS)

    VA's Domiciliary Care for Homeless Veterans (DCHV) Program, which 
was recently renamed as the ``Residential Rehabilitation and Treatment 
Program,'' provides a full range of treatment and rehabilitation 
services to many homeless veterans. Over the past 17 years, VA has 
established 34 DCHV programs providing 1,873 beds. Since 1987, there 
have been over 71,000 episodes of treatment in the DCHV program. VA 
continues to improve access to the services offered through these 
programs. In Fiscal Year 2005, DCHV programs treated 5,394 homeless 
veterans, while VA funded the development of nine new DCHV programs 
offering a total of 400 beds. Further, in Fiscal Year 2006, VA funded 
the development of two additional DCHV programs totaling 100 beds. In 
addition to the DCHV program, homeless veterans receive treatment and 
rehabilitation services in the Psychosocial Residential Rehabilitation 
Treatment Program (PRRTP). Currently there are 72 PRRTP programs with a 
total of 2020 beds.

                    STAFFING AT VBA REGIONAL OFFICES

    Homeless veterans outreach coordinators (HVOCs) at all VBA regional 
offices work in their communities to identify eligible homeless 
veterans, advise them of VA benefits and services, and assist them with 
claims. The coordinators also network with other VA entities, VSOs, 
local governments, social service agencies and other service providers 
to inform homeless veterans about other benefits and services available 
to them. In fiscal year 2005, VBA staff assisted homeless veterans in 
34,631 instances. They contacted 4,247 shelters, made 4,803 referrals 
to community agencies, and made 7,416 referrals to the Veterans Health 
Administration (VHA) and the DOL Homeless Veterans Reintegration 
Programs (HVRP).
    Since the beginning of fiscal year 2003, regional offices maintain 
an active record of all compensation and pension claims received from 
homeless veterans. Procedures for the special handling and processing 
of these claims are in place. From fiscal year 2003 through fiscal year 
2005, VBA received 13,833 claims for compensation and pension from 
homeless veterans. Of those claims, 56 percent were for compensation 
and 44 percent were for pension. Of the compensation claims processed, 
37 percent were granted, with an average disability rating of 44.20 
percent. 9.9 percent of claimants were rated at 100 percent disabling. 
Of the total claims denied, 48 percent were due to the veteran's 
disability not being service connected. The average processing time for 
all compensation claims of homeless veterans was 151 days. Of the 
pension claims processed, 73 percent were granted. Of the total claims 
denied, 21 percent were due to the veteran's disability not being 
permanent and total. The average processing time for all pension claims 
of homeless veterans was 102 days.

         MULTIFAMILY TRANSITIONAL HOUSING LOAN GUARANTY PROGRAM

    Public Law 105-368 authorized VA to establish a pilot program to 
guarantee up to 15 loans or $100 million, whichever first occurs, for 
multifamily transitional housing. Since September 2002, Claude 
Hutchison, Jr., Director of VA's Office of Asset Enterprise Management, 
has been the lead for the Department in implementing the program. Many 
complex issues, often varying from jurisdiction to jurisdiction, 
surround implementation, and VA has worked closely with veteran service 
organizations, veteran-specific housing providers, faith-based 
organizations, clinical support service programs, VA medical care 
staff, state, city and county agencies, homeless service providers, and 
finance and housing experts. We are also using consultants to assist us 
with our evaluation of potential sites and providers of housing 
services.
    VA has issued two final commitments for guaranteed loans for 
transitional housing projects that would, when completed, provide 285 
new beds for homeless veterans. Those projects are: Catholic Charities 
of Chicago, Chicago, Illinois, with 141 beds; and, Vietnam Veterans of 
San Diego, San Diego, California, with 144 beds. The Catholic 
Charities' project is under construction and is expected to open and be 
serving veterans by the end of the year. Vietnam Veterans of San Diego 
is expected to close on its guaranteed loan by early summer, which 
leaves funding available for up to thirteen (13) remaining program 
loans or until the remaining $92.1 million in program funds have been 
guaranteed.
    We plan to host three industry days across the country this spring 
and summer, inviting housing and supportive service provider 
organizations and other governmental and private entities that may be 
interested in learning how this program works.

 COORDINATION OF OUTREACH SERVICES FOR VETERANS AT-RISK OF HOMELESSNESS

    VA, together with the Department of Labor (DOL) and with additional 
assistance from the Department of Justice (DOJ), has helped develop 
demonstration projects providing referral and counseling services for 
veterans who are at risk of homelessness and are currently 
incarcerated. Currently, VA and DOL have seven sites providing referral 
and counseling services to eligible veterans at risk of homelessness 
upon their release from penal institutions. While the majority of these 
demonstration projects work with state prisons, our collaboration 
includes one demonstration project with a Federal Bureau of Prisons 
institution, and another with a county jail. Local staff from both the 
VHA and VBA are aiding veterans at each demonstrationsite receive 
information about available VA benefits and services.
    Our commitment to these demonstrations programs is strong. We 
believe that many of these veterans will, with assistance, return to 
productive lives. While the number of incarcerated veterans is 
approximately 10-15 percent of the prison population, it is expected 
that these joint Federal efforts will assist many veterans who would 
otherwise be at risk for homelessness upon their release. Moreover, 
after their release, we are providing a needed continuum of services to 
these veterans, chiefly through the provision of transitional housing 
made available through the Homeless Providers Grant and Per Diem 
Program or residential care in VA domiciliary care programs and other 
places as needed. DOL continues to provide funding under its Homeless 
Veterans Reintegration Programs (HVRP) for the Incarcerated Veterans' 
Transition Program (IVTP). VA and DOL are reviewing this program 
carefully and will provide a report on its effectiveness.

           HUD-VETERANS AFFAIRS SUPPORTED HOUSING (HUD-VASH)

    VA also recognizes HUD's long-standing support of the HUD-VASH 
program. This very successful partnership links the provision of VA 
clinical care with permanent housing in order to assist the recovery of 
chronically homeless, mentally ill veterans. HUD and VA hope to 
continue this valuable program, subject to the availability of 
resources.

                                SUMMARY

    VA continues to make progress on addressing both prevention of and 
treatment for the homeless. Each year we share with you our annual 
report to the Congress that outlines our activities for homeless 
veterans. VA is collaborating closely with other Federal agencies, 
state and local governments and community-based organizations to assure 
that homeless veterans have access to a full range of health care, 
benefits and support services. We still have much to do to end chronic 
homelessness among veterans in America, and we are eager to work with 
you to meet that challenge.
                                 ______
                                 
        Response to Written Questions Submitted by Hon. Barack 
                      Obama to Peter H. Dougherty

    Question. It has been estimated in some studies that up to 75 
percent of homeless veterans have mental health or substance abuse 
problems. We heard about the need for comprehensive ``wrap-around'' 
services that include mental health assessment and treatment. Does the 
VA make information available about its mental health services to grant 
recipients both inside and outside of the Department? If so, how?
    Answer. The Department of Veterans Affairs (VA) ensures that 
information is made available about its mental health services to grant 
recipients through the Grant and Per Diem (GPD) Liaisons, Health Care 
for Homeless Veterans (HCHV) staff, Project CHALENG (Community 
Homelessness Assessment, Local Education and Networking Groups) and its 
Council of Network Homeless Coordinators.
    Each GPD recipient has a designated Veterans' Affairs GPD Liaison. 
The GPD Liaison is experienced in working with community based 
providers, is knowledgeable about the comprehensive needs of homeless 
veterans, and is well acquainted with both community resources and the 
VA's Mental Health services. The GPD Liaisons work closely with each 
grant recipient to ensure the effective coordination of care between VA 
medical care and/mental health services and the GPD recipient.
    The HCHV staff provides outreach, referral and case management 
services to homeless veterans in the community. They are aware of VA 
healthcare/mental health resources and serve as resource persons to VA 
grant recipients and other community agencies about these resources.
    Project CHALENG (Community Homelessness Assessment, Local Education 
and Networking Groups) is a VA program designed to enhance the 
continuum of care for homeless veterans provided by the local VA and 
its surrounding community service agencies. Project CHALENG enhances 
coordinated services by bringing the VA together with community 
agencies and other Federal, state, and local governments who provide 
services to the homeless to raise awareness of homeless veterans' needs 
and to plan to meet those needs. During Project CHALENG meetings, the 
VA and the local community can come together to discuss what resources 
are available, identify service gaps and identify opportunities to 
collaborate to meet the needs of homeless veterans.
    The VA Council of Network Homeless Coordinators (CNHC) has a 
representative from each of its 21 Veterans Integrated Service Networks 
(VISN). Each of the CNHC members works with the all of the VA homeless 
programs in each VISN. The CNCH members are responsible for VISN wide 
planning for VA homeless services and community development. In 
addition, the CNCH member is often the initial point of contact for 
community providers requesting information about Veterans Health 
Administration resources, contact persons, and information to about VHA 
Grant and Per Diem funding opportunities.

    Chairman Craig. Now let me turn to the Assistant Secretary 
for Veterans' Employment and Training, Chick Ciccolella. 
Welcome to the Committee.

 STATEMENT OF HON. CHARLES S. CICCOLELLA, ASSISTANT SECRETARY 
   FOR VETERANS' EMPLOYMENT AND TRAINING, DEPARTMENT OF LABOR

    Mr. Ciccolella. Thank you, Mr. Chairman. Thank you very 
much. It is a pleasure to be here and thank you very much for 
holding the hearing. I will testify on the Department of 
Labor's employment-focused program for homeless veterans called 
the HVRP, or Homeless Veterans Reintegration Program.
    This is a targeted nationwide program that focuses on 
helping veterans re-enter the workforce. The funds are awarded 
competitively through grants to States. Some go to local 
Workforce Investment Boards. They go to public and private 
agencies, nonprofit entities, including many community- and 
faith-based organizations.
    The purpose of the program, of course, is to reintegrate 
homeless veterans into the job place and put them on a path to 
self-sufficiency. The grantees will provide an array of 
services using a very serious case management approach. They 
use a very holistic approach and they focus on assessment, they 
focus on case management, they focus on skills training, and on 
job search assistance.
    The emphasis is not only on getting a homeless veteran a 
job, but it is on that homeless veteran retaining a job. The 
grantees build partnerships and they build partnerships with 
Federal, State, and local level entities. They are very adept 
at dealing with the VA and the HUD grants, as Michael Blecker 
on the previous panel testified. They are required to enhance 
employment training opportunities through their linkages and 
their networking.
    Now, we also require each of the HVRP grantees to link 
their services to the workforce system, in other words, to link 
them to the veteran employment representative, called the DVOP, 
the Disabled Veteran Outreach Program specialist. We encourage 
out-stationing of the DVOPs at the HVRP sites, as your staff 
saw at the Maryland Center for Veterans' Employment and 
Training last week. And for every grantee--there are 84 
grantees--they are assigned a DVOP, even if the DVOP is not 
outstationed. It is a successful program. It is successful 
because the money is well spent. It is well leveraged. The 
performance of the program proves that.
    For the period that ended June 30, 2005, 8,087 veterans 
entered employment through the grants. It is approximately a 65 
percent rate. At the 90-day retention level, 90 days after they 
got their jobs, 72 percent of those retained their jobs, and at 
the 6-month level, 57 percent still had their jobs. We place a 
lot of emphasis on 90- and 180-day retention rates. We are 
forming a retention baseline, and the purpose of that is to be 
sure they get good jobs.
    In the next program year, which ends June 30, 2006, we will 
fund 92 grants. Over 16,000 homeless veterans will be served, 
and 10,000 will enter employment. We believe this is a model 
program. For a very, very, very small investment, less than 
$2,000 per participant, the HVRP program successfully puts 
veterans, homeless veterans on a path to self-sufficiency.
    Mr. Chairman, I have put some charts in my written 
testimony which show graphically the performance of HVRP and I 
would only add that the legislation that authorizes the HVRP 
program is under consideration. The Administration supports the 
extension of the authorization for the HVRP program. Thank you 
very much.
    Chairman Craig. Chick, thank you very much for that 
testimony. It is appreciated.
    [The prepared statement of Mr. Ciccolella follows:]

 Prepared Statement of Charles S. Ciccolella, Assistant Secretary for 
         Veterans' Employment and Training, Department of Labor

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to discuss our Homeless Veterans' 
Reintegration Program (HVRP) and its relationship to other agencies' 
programs for homeless veterans. We appreciate the leadership of the 
Senate Committee on Veterans' Affairs in supporting programs to help 
our Nation's veterans.
    The Veterans' Employment and Training Service (VETS) has the 
mission of providing veterans with the resources and services they need 
to succeed in the 21st century workforce by maximizing their employment 
opportunities, protecting their employment rights, and facilitating 
their smooth transition from the military into civilian employment.

                      HOMELESSNESS AMONG VETERANS

    According to the Department of Veterans Affairs (VA), on any given 
night, less than 200,000 veterans are homeless. Veterans, for many 
reasons, some of which are not fully understood, are disproportionately 
represented in the homeless population. In fact, VA estimates that 
about a third of adult homeless men and nearly a quarter of all 
homeless adults have served in the armed forces. VA has a very large 
and integrated network of programs and services to help address the 
treatment, rehabilitation and residential needs of our Nation's 
homeless veterans.

                      IMPORTANCE OF COLLABORATION

    The Department of Labor (DOL) works cooperatively with the VA on 
many veterans' issues, including in the specific area of addressing the 
needs of homeless veterans. We actively support the VA's substantial 
assistance programs. I have served on the VA's Advisory Committee for 
Homeless Veterans for the past 5 years. The homeless service programs 
VA provides through their collaboration with Federal, State and Local 
partners represent a coordinated range of services for homeless 
veterans. These programs have made a tremendous difference in the lives 
of many, many homeless veterans.
    I cannot overemphasize that last point. When agencies and 
organizations work together to get the job done, which is what you see 
happening today with programs that address the needs of homeless 
veterans, we are much more likely to see meaningful results.
    I applaud the leadership of Secretary Chao, Secretary Nicholson and 
former Secretary Principi and their commitment to ending homelessness 
among veterans.

     DEPARTMENT OF LABOR TARGETED ASSISTANCE FOR HOMELESS VETERANS

    DOL's targeted assistance program for homeless veterans, the 
employment-focused VETS Homeless Veterans' Reintegration Program 
(HVRP), is an important, successful intervention and prevention 
initiative for veterans who find themselves without a permanent place 
to call home.
    The intended purpose of the HVRP program is to expedite the 
reintegration of homeless veterans into the labor force. This is 
accomplished through competitive grants nationwide that are awarded to 
States, local governments, Workforce Investment Boards, and nonprofits, 
including community- and faith-based organizations. In fiscal year 
2005, 84 competitive HVRP programs were funded.
    HVRP grantees working collaboratively with the Departments of 
Veterans Affairs, Housing and Urban Development (HUD), Health and Human 
Services (HHS), and State and community organizations, and nonprofit 
organizations have a proud history of providing meaningful assistance 
to our nation's homeless veterans. HVRP is highly successful because 
(1) it focuses on job training and employment assistance, (2) it helps 
put homeless veterans on the path to self-sufficiency, and (3) it is 
well integrated with the VA's continuum of care for homeless veterans.

   ADMINISTRATION AND BUDGET OF THE HOMELESS VETERANS' REINTEGRATION 
                                PROGRAM

    HVRP is administered on a Program Year (PY) basis. The funds are 
awarded through a competitive grants process. The authorizing 
legislation for HVRP expires December 31, 2006. H.R. 3665, currently 
under consideration in the Senate, would reauthorize HVRP. The 
Administration supports extending authorization of HVRP for an 
additional 3 years.
    VETS is planning to announce the fiscal year 2006 HVRP 
Solicitations for Grant Applications (SGAs) by the end of this month. 
We plan to conduct three (3) competitions (Urban, Non-Urban, and an SGA 
for New Grantees) seeking to serve both urban and non-urban homeless 
veterans. We are conducting a separate competition for new grantees in 
order to increase the geographic coverage of the program nationwide, 
and to provide an opportunity for applicants who have not previously 
been awarded an HVRP grant.
    The fiscal year 2006 HVRP appropriation is $21,780,000. This will 
fund approximately 92 grants. Over 16,000 homeless veterans will be 
served by these HVRP grants and approximately 10,000 homeless veterans 
will enter employment. The fiscal year 2007 requested budget is 
$21,838,000.

                      HOW THE HVRP GRANTS OPERATE

    HVRP grantees provide a ``holistic'' approach to serving the 
homeless veteran. Proper assessment and case management is essential, 
as is skills training and job search assistance. We place emphasis not 
only on the veteran getting a job, or ``entering employment,'' but also 
on the veteran keeping the job, or ``retaining employment.'' In Program 
Year 2004, ending June 30, 2005, the program's entered employment rate 
was 65 percent, and the 90-day retained employment rate was 72 percent 
of the 65 percent who enter employment. We are placing emphasis on 
employment retention at the 90 and 180 day mark in order to ensure 
participants are placed into quality jobs that provide better 
opportunities for achieving self-sufficiency.
    Grant recipients are required to enhance employment and training 
opportunities through linkages, networking, and coordination with 
community based organizations, as well as Federal, State, and Local 
agencies, veteran service organizations, and America's workforce 
investment system. In fact, we require grantees to link their services 
with the Disabled Veterans Outreach Program (DVOP) specialists, who 
provide employment-focused case management services in One-Stop Career 
Centers.
    In support of the DVOP involvement, we encourage out-stationing of 
DVOPs at HVRP locations, as your staff observed last week at the 
Maryland Center for Veteran Employment and Training, or ``MC VET'' HVRP 
in Baltimore. In addition, each HVRP grantee is assigned a DVOP 
specialist. Local Veterans Employment Representatives (LVERs) also are 
available to assist homeless veterans and HVRP grantees, providing job 
development, placement and supportive services. LVERs are located in 
One-Stop Career Centers, and are able to link homeless veterans to One-
Stop services and their partner programs.

                  ADDITIONAL FEATURES OF HVRP PROGRAMS

    Two other initiatives, funded under the HVRP program, complement 
our ongoing efforts to address the needs of homeless veterans.
    <bullet> Homeless Stand Downs: In fiscal year 2005, HVRP also 
funded homeless veteran Stand Down activities at 34 locations. Over 
5,300 homeless veterans received on-the-spot services and referrals for 
support services. Stand Downs are always collaborative efforts with the 
VA, HUD, local workforce agencies and other community service 
providers. Most are multi-day events where homeless veterans are 
provided medical treatment, VA benefit eligibility services, and 
employment-focused case management by DVOPs and LVERs. On average, over 
150 homeless veterans were served at each of these Stand Down events.
    <bullet> Incarcerated Veterans' Transition Program Grants: In 
accordance with the Homeless Veterans Comprehensive Assistance Act of 
2001, approximately $2,000,000 HVRP dollars are used to support seven 
Incarcerated Veterans' Reintegration Demonstration (IVTP) programs, 
which are conducted jointly by DOL and the VA. These grants serve 
transitioning incarcerated veterans and are designed to reintegrate 
these veterans into society and the workforce, reducing the high 
recidivism rates among former prisoners.

   A RELATED DOL PROGRAM: THE VETERANS' WORKFORCE INVESTMENT PROGRAM

    In addition to the targeted HVRP and IVTP programs, VETS funds 
competitive grants through the Veterans' Workforce Investment Program 
(VWIP), authorized under Section 168 of the Workforce Investment Act of 
1998. Although it does not specifically target homeless veterans, VWIP 
grants focus on assisting veterans with overcoming barriers to 
employment, including recently separated veterans, and are extremely 
valuable for preventing homelessness. VWIP grants emphasize delivery of 
training and facilitation of occupational credentialing, so that 
successful participants are prepared to meet employers' needs for 
workers in demand occupations within high-growth industries. There are 
currently 17 VWIP grantees serving 2,500 participants--65 percent of 
whom are expected to enter into employment.

                                SUMMARY

    Mr. Chairman, VETS views HVRP as a model program for reintegrating 
homeless veterans into society and the workforce. For a relatively 
small investment, the HVRP program is successfully putting veterans on 
a path to self-sufficiency and ending the cycle of homelessness.
    We have attached several charts that show HVRP funding levels, 
participation, entered employment levels and wages for recent years.
    This concludes my testimony. I will be pleased to respond to your 
questions.

[GRAPHIC] [TIFF OMITTED] T8175.007

[GRAPHIC] [TIFF OMITTED] T8175.008

    Chairman Craig. Now, we will turn to Philip Mangano, 
Executive Director, Interagency Council on Homelessness. Phil, 
welcome to the Committee.

   STATEMENT OF PHILIP F. MANGANO, EXECUTIVE DIRECTOR, U.S. 
              INTERAGENCY COUNCIL ON HOMELESSNESS

    Mr. Mangano. Thank you so much, Mr. Chairman, and I am very 
happy to be here representing the United States Interagency 
Council on Homelessness, which brings together 20 Federal 
agencies to make their resources more available and more 
accessible on the issue of homelessness.
    I appreciate the attention of this Committee in its focus 
on homeless veterans today, and I do want to thank Michael and 
Al and Tim for their passion, but more importantly, perhaps, 
for the data that they brought to this table that indicate that 
the investments that are being made by the Federal Government, 
by this Administration, are working out there in the field, 
both in reducing the number of homeless veterans on the streets 
of our country and working to improve their lives.
    I can assure you that on this issue in recent years, there 
have been no better advocates than the two VA Secretaries that 
have chaired the United States Interagency Council on 
Homelessness, now currently Secretary Nicholson, who is the 
most recent Chair of the Council, and his predecessor, 
Secretary Principi. In our Council meetings, in their 
professional and personal commitments, they have been true to 
the mission, investing new resources, prioritizing the 
population, and embracing new strategies. And Assistant 
Secretary Ciccolella and Pete Dougherty have been constant 
supporters and prodders of the Council in terms of our focus on 
the issue of homeless veterans, so I appreciate their being 
here, as well.
    I also want to introduce John O'Brien, who is on the staff 
of the Interagency Council. He is one of our Regional 
Coordinators. He is a Vietnam veteran. He has 15 years of 
experience in homeless programs and he is our point person on 
veterans issues, so I am very happy that John is here with us 
today. He just convened, in fact, in San Diego, an Innovators' 
Conference that brought innovators from around the country 
together who are doing exceptional programs on the issue of 
homeless veterans. We convened about 20 cities to hear what was 
going on so that they could go back and replicate those 
innovations.
    In my 25 years of working on this issue of homelessness, 
whether volunteering on a bread line, creating shelter and meal 
and referral programs, coordinating a city's response, working 
with the faith community, or directing a Statewide advocacy 
organization in my native Massachusetts, I have seen directly 
the disgrace of those who have served our country, languishing 
on our streets, hidden in encampments and long term in our 
shelters. I can assure you that it is a disgrace that cries out 
for remedy.
    Shortly after my appointment to the Council, I went to Los 
Angeles to visit the homeless problem there, which is the worst 
in the country. I visited Skid Row. I left the car, and I went 
directly to a group of 6 people who were standing there, part 
of the 4,500 people who live on the streets of Skid Row, 
literally within the shadow of downtown Los Angeles. In the 
conversation I had with those 6 people, I discovered that 5 of 
them were living in tents, on cardboard boxes, in sleeping 
bags, and 5 of those 6 whom I first encountered were homeless 
veterans.
    I can assure you that the commitment of the Council is to 
work with the member Federal agencies, States, cities, 
counties, the faith community, nonprofits, and businesses to 
remedy chronic homelessness in our country, to respond to the 
request that those veterans made, all of whom wanted their 
homelessness ended, to keep faith with those veterans.
    The commitment of the Council is also to put into action 
the President's Management Agenda to ensure that the 
investments that the Federal Government makes are research-
driven, performance-based, and results-oriented, to put that 
agenda to work for homeless people, to invest in the reductions 
that Pete just talked about and Tim alluded to earlier. That is 
what the Federal agencies are doing individually and 
collectively.
    Pete testified as to what the VA is doing, and I want to 
mention that the VA targets more resources to homeless people 
than any other Federal agency, their Grant and Per Diem 
Program, with 80 percent who go into that program moving on to 
permanent housing, ending the homelessness of homeless 
veterans, the targeting of mental health and substance abuse 
resources that is going on, and I want to affirm the importance 
of the Advisory Committee the VA has convened. That inductive 
input for planning, as we heard from the previous panel, is so 
important in terms of their focus on housing and services.
    I also want to commend the VA for their collaborative 
spirit. In every effort that we have made to collaborate among 
Federal agencies, the VA's only response has been, ``yes,'' 
whether it has been in the Chronic Initiative that we did in 
Policy Academies that we sponsored, or in the First Step 
initiative. In every regard, their intent is to help. 
Obviously, the Department of Labor, in terms of the testimony 
just given by Assistant Secretary Ciccolella, the Homeless 
Veterans Reintegration Program is getting exceptional results 
around the country. That statistic that he gave of 10,000 
veterans entering employment, that is outstanding, as well as 
the support that the Department of Labor has given to Stand-
Downs all across our country.
    But these aren't the only Federal agencies who are doing 
the job. HUD, in terms of the HUD-VASH program, which is 
housing homeless veterans, and HUD's near doubling of resources 
in their Homeless Assistant Grants just this year targeted to 
homeless veterans.
    HHS is doing their role, as well, in terms of the Chronic 
Initiative, which has housed a number of chronic homeless 
people around our country, 30 percent of them being homeless 
veterans, and even today, SAMHSA from HHS is sponsoring a 
conference focused on returning veterans.
    SSA is also involved in the partnership at the Federal 
level through their initiatives that are focused on increasing 
enrollment in terms of SSI; and there's FEMA's support of 
Stand-Downs and Justice's partnering in terms of the Re-entry 
Initiative.
    Specifically, I also want to mention the Council's work to 
add value to what is going on. The Council has been working to 
create a national partnership across our country that begins 
with the 20 Federal agencies in Washington, but what we have 
come to realize is that no one level of government can get this 
job done alone, so we have been partnering with Governors in 
States and territories. There are now 53 Governors of States 
and territories who are partnered through State Interagency 
Councils on Homelessness with us in the effort to end chronic 
homelessness, but we need every level.
    So counties and cities, through their mayors and county 
executives--now 211 counties and cities--are partnered in the 
national partnership to get the job done for chronic 
homelessness----
    Chairman Craig. I am going to have to ask you to wrap up.
    Mr. Mangano. Sure. I am happy to do that. I think the 
effort that is being made in that national partnership and 
among Federal agencies, it is directed toward outcomes and 
results, making the Federal resources that are being invested 
by this Administration, by the Congress end in results for 
homeless veterans, to literally take them off the streets, out 
of long-term stays, out of encampments, and to provide housing 
and the support services necessary to end their homelessness.
    So I am happy to be here and I am proud of the work that 
the Federal Government is doing in this effort.
    Chairman Craig. Phil, thank you very much.
    [The prepared statement of Mr. Mangano follows:]

     Prepared Statement of Philip F. Mangano, Executive Director, 
                U.S. Interagency Council on Homelessness

    Chairman Craig, Ranking Member Akaka, and Distinguished Members of 
the Committee:
    I appreciate the opportunity to present testimony today on the work 
of the United States Interagency Council on Homelessness and its 
initiatives to forward the Administration's goal of ending chronic 
homelessness in our nation. The Council gives special attention in its 
initiatives to those who have served our nation in uniform, and we are 
committed to preventing and ending homelessness for those who have 
served our country.
    It is my privilege today to be here with Secretary Nicholson of the 
Department of Veterans Affairs, who is the immediate past Chair of the 
Council. Since the Council was revitalized by President Bush, the 
Department of Veterans Affairs has not only chaired the Council for the 
first time in its history, but it has done so for the longest period of 
time and with the leadership of two excellent and committed 
Secretaries, Secretary Nicholson and his predecessor, Secretary Anthony 
Principi.
    Background and History. The Council is an independent establishment 
within the Federal executive branch composed of twenty Cabinet 
Secretaries and agency heads. The Council's Cabinet Chair is currently 
Department of Housing and Urban Development Secretary Alphonso Jackson.
    As I indicated, the past Chair of the Council is Secretary 
Nicholson, whose agency provided an important year of leadership on the 
needs of veterans. Over the past 4 years, chairmanship of the Council 
has rotated among the Secretaries of Housing and Urban Development, 
Health and Human Services, and Veterans Affairs. Rotating the chair 
among the members is in accordance with an amendment to the Council's 
statute included in the fiscal year 2001 VA/HUD/Independent Agencies 
Appropriations Act. This rotation has had both substantive and symbolic 
meaning, reflecting the reality that homelessness has many causes and 
that solutions to homelessness are not fashioned by any one agency but 
through collaborations by all.
    The Council was authorized in 1987 under the McKinney-Vento 
Homeless Assistance Act but was dormant for nearly 6 years before being 
revitalized by the Administration in 2002 in accordance with the fiscal 
year 2001 Appropriations Act. It is the mission of the Interagency 
Council to coordinate the Federal response to homelessness and to 
create a national partnership at every level of government and with 
every element of the private sector to reduce and end homelessness in 
the Nation and forward the Administration's goal of ending chronic 
homelessness. To do so, the Council has forged an unprecedented 
national partnership that extends from the White House to the streets 
and includes Federal, State, and local government, advocates, 
providers, consumers, and faith-based organizations.
    The Council works to improve access to and coordination of Federal 
investments among member departments and agencies; ensure the 
effectiveness of Federal activities and programs; engage and assist 
State and local governments, advocates, service providers, and 
customers in creating effective local solutions; and offer technical 
assistance and evidence-based best practices to partners at every level 
of government, as well as the private sector.
    Agenda for Results. The Council, in keeping with the President's 
Management Agenda, encourages activities and initiatives that 
incorporate research-driven, performance-based, and results-oriented 
solutions. This includes:
    <bullet> Dissemination of new and innovative approaches such as 
Housing First, Assertive Community Treatment Teams, and Project 
Homeless Connect that are proving effective at ending chronic 
homelessness;
    <bullet> Local cost-benefit studies that reveal the costs of 
homelessness to the community and the cost savings that arise from 
effective solutions;
    <bullet> Strategies to prevent homelessness for individuals and 
families before it occurs; and,
    <bullet> Access to mainstream resources for the benefit of homeless 
persons and families.
    Through its work, the Council is seeking to establish a new 
standard of expectation around the issue of homelessness. That new 
measure requires that resource investments should do more than just 
``manage'' the problem. We expect those investments to result in 
visible, measurable, quantifiable change in our communities, on our 
streets and in the lives of homeless people. Since enactment of the 
McKinney Act in 1987, billions of dollars have been spent by the 
Federal Government and other billions have been spent by State and 
local governments and philanthropy on this issue. But the fact is that 
despite the expenditure of these funds, there have continued to be tens 
of thousands of persons living long term on the streets, in encampments 
and in our shelters. Veterans are represented disproportionately in 
this population.
    Ending Chronic Homelessness. The Administration has set a new 
marker on homelessness, the goal of working in partnership with States, 
localities, faith-based and community groups, as well as business, to 
end chronic homelessness. The chronically homeless are the most 
vulnerable and disabled, those most visible and long term on our 
streets and in shelters.
    We also are now learning through research that they are some of the 
most expensive people to the public purse.
    According to the U.S. Department of Veterans Affairs (VA), one-
third of adult homeless men and nearly one-quarter of all homeless 
adults have served in the armed forces. While fewer than 200,000 
veterans may be homeless on any given night, as many as twice that 
number may experience homelessness during a year. Many other veterans 
are considered at risk because of poverty, lack of support from family 
and friends, and precarious living conditions in overcrowded or 
substandard housing.
    Ninety-seven percent of homeless veterans are male, and the 
majority is single. Nearly half of all homeless veterans treated in 
health care programs suffer from mental illness, and slightly more than 
2 out of 3 have alcohol or drug abuse problems. Thirty-five percent 
have both psychiatric and substance abuse disorders.
    These VA data clearly show the relationship of the veterans 
population to those experiencing chronic homelessness.
    To meet our expectations of visible, measurable, quantifiable 
outcomes, our efforts are being guided by a management agenda, 
implemented in partnership across Federal agencies and with other 
levels of government and with the private sector, faith based 
organizations and homeless people. We are focusing resource investments 
on a strategy made whole that includes not only intervention activities 
but prevention initiatives. Our intent is to identify, create, and 
invest in the most innovative initiatives that are research and data 
driven, performance based and results-oriented.
    Cost Analysis. Chronic homelessness is the most visible form of 
homelessness in our country, and is most often the result of 
individuals' disabilities. People experiencing chronic homelessness are 
the people we see in doorways or under bridges day after day, year 
after year.
    Over the last few years, research has shown that those experiencing 
chronic homelessness are in fact a finite group representing 10-20 
percent of the adult homeless population. However, they consume over 50 
percent of all emergency homeless shelter services and ricochet 
randomly around the acute side of very expensive primary and behavioral 
health care systems. As a result, persons experiencing chronic 
homelessness are some of the most expensive people in communities 
across the country.
    Here are just a few examples of the cost analysis that is emerging 
in cities as they address chronic homelessness.
    <bullet> In Asheville, Buncombe County, NC, 10-year planners 
analyzed the service use of 37 homeless men and women over a period of 
3 years and found that these individuals cost the City and County more 
than $800,000 each year including 1,271 arrests generating $278,000 in 
jail costs, 280 episodes of EMS services for a cost of $120,000, and 
hospitalization costs of $425,000.
    <bullet> The University of California at San Diego followed the 
service use of 15 chronically homeless people for 18 months. They 
reported 300 emergency room visits, taken by ambulance and accompanied 
by EMTs, using multiple day stays and they quantified behavioral health 
costs (substance abuse and mental health) and law enforcement. Total 
cost: $3 million over 18 months or an average of $200,000 per person.
    <bullet> The Boston Health Care for the Homeless Program tracked 
119 persons experiencing chronic homelessness over 5 years and 
discovered that they had over 18,000 emergency room visits at an 
average cost of $1,000 per visit.
    <bullet> Two concerned Reno police officers tracked the services 
use of just two homeless persons they repeatedly encountered over 1 
year. When the officers examined law enforcement, emergency room and 
other hospital costs, they found that each person cost over $100,000 a 
year.
    Investment, Innovation, and Results. Just as research has been 
helpful in quantifying the costs associated with chronic homelessness, 
so too has the research been helpful in identifying interventions that 
are effective in ending chronic homelessness. Research shows that 
permanent supportive housing strategies in tandem with 
multidisciplinary, clinically based engagement strategies, and 
including employment counseling and job placement as appropriate, can 
be successful in sustaining tenancies for this population. These models 
of housing, which involve a rich array of supportive services, are 
effective in moving those experiencing chronic homelessness off the 
streets and out of long term shelter stays into sustainable tenancies 
and toward recovery and self sufficiency.
    That's the basis of the intervention in a growing number of cities 
across the country, some of which are now able to report reductions in 
their population of persons experiencing chronic homelessness. The 
targeted VA homeless programs are a key component of the progress out 
of homelessness we seek for this population.
    The Administration's goal of ending chronic homelessness is based 
on learning from--and acting on--that research. At the inaugural 
meeting of the revitalized Council, the Secretaries of HUD, HHS, and VA 
announced an historic joint funding initiative, that now totals $55 
million, as the first infusion of Federal resources targeted 
specifically toward the goal of ending chronic homelessness. More than 
100 applications were received from communities across the country, and 
awards were made to 11 community partnerships.
    Along with the Federal funding partners, the Council has continued 
to monitor the results from this investment. To date, the 11 community 
partnerships have successfully housed over 600 persons. Cumulatively, 
the men and women housed under the Collaborative Initiative represent 
over 4,300 years of homelessness ended and tens of millions of dollars 
in ad hoc health care, corrections and other community costs incurred 
during their years of homelessness.
    Critically important to the results of this initiative have been 
the partnerships built at every level with the VA to serve more 
effectively homeless veterans in these sites, bringing every level of 
systems closer together to benefit consumers. The HUD/HHS/VA 
Collaborative Initiative described above is just one of a number of 
true Federal collaborations that demonstrate the continuing and 
deepening commitment of a wide array of Federal agencies to get the job 
done:
    <bullet> HHS, HUD, DOL, VA, ED, DOJ, USDA, and USICH collaborated 
in the multi-year initiative that brought state government leaders from 
55 States and Territories to Policy Academies designed to help State 
and local policymakers improve access to mainstream services for people 
who are homeless.
    <bullet> HUD and DOL have collaborated in an effort to combine 
employment training with housing assistance in the Ending Chronic 
Homelessness through Employment and Housing Initiative.
    <bullet> DOL and the VA are collaborating to target homeless 
veterans.
    <bullet> HUD, Labor, and the Justice Department are partners in the 
Administration's Prisoner Re-entry Initiative.
    <bullet> Through its Homeless Outreach Projects and Evaluation 
(HOPE), the Social Security Administration has funded 41 new projects 
across the country to increase access to Supplemental Security Income 
and Social Security disability benefits for persons experiencing 
chronic homelessness.
    The Administration's Record of Investment. The additional resources 
and interagency collaborative efforts, including the President's fiscal 
year 07 Budget proposal which includes a sixth consecutive year of 
record proposed funding for targeted homeless programs and proposed 
increases for targeted programs for homeless veterans, are all evidence 
of the Administration's commitment to ending chronic homelessness and 
are an important indicator of the Federal Government's good faith in 
the intergovernmental partnerships we are developing with Cities and 
States.
    The Administration's strategy is built on the recognition that no 
one Federal agency, no one level of government and no one sector of the 
community can prevent and end homelessness alone. That's why the 
Council is working to establish an expansive range of partnerships, 
public and private, between Federal agencies, State Houses, City Halls 
and County Executive offices, downtown associations, Chambers of 
Commerce, faith based and community organizations, the United Way, 
YMCAs, providers and advocates, and homeless people themselves.
    Federal Interagency Collaboration. In addition to the full Council, 
the Federal agencies also collaborate at other levels to achieve the 
Administration's goal.
    Senior Policy Group. The Interagency Council has senior policy 
relationships with the Council's member agencies, convening meetings of 
a Senior Policy Group of agency designees according to the direction 
set by the Council Chair, and meeting with managers of Federal homeless 
assistance programs. The Senior Policy Group provides a regular forum 
for coordinating policies and programs, collecting data, developing 
special initiatives, and preparing recommendations for consideration by 
Council members.
    During the last 2 years, and in response to the direction of each 
of its Chairs, the Council has collaborated with a Senior Policy 
designee of the Chair's agency to convene these meetings. Working in 
partnership with Peter Dougherty of the VA, Senior Policy Group 
meetings last year have focused on needs of returning service members, 
issues of Federal surplus property, and Federal agency definitions of 
homelessness. Additionally, the Council's Executive Director has met 
with intra-agency homeless work groups and with the managers of Federal 
targeted and mainstream homeless assistance programs to coordinate 
program information and identify opportunities for collaboration.
    Regional Federal Interagency Councils on Homelessness. The Council 
has also worked to establish Regional Federal Interagency Councils in 
the Federal regions, to mirror the partnership and initiatives of the 
Washington Council. The key Federal representative of the agency 
currently acting as Chair of the Washington Council also leads the 
Regional Councils. Thus, in 2004-2005, regional VA officials provided 
leadership of their Federal partners in the field. Key activities for 
the Regional Councils include:
    1. Initiating regular meetings of Federal representatives to focus 
on developing relationships and advancing a focus on homelessness and 
chronic homelessness in the region. Regional Council members have taken 
part in public events to make Federal collaboration more visible 
regionally and forward the commitment of the Administration to end 
chronic homelessness.
    2. Using regular meetings and special collaborative projects to 
increase regional knowledge of Federal homelessness polices and 
initiatives and translate research, innovative developments, and 
resource opportunities to the field.
    3. Developing regional senior staff working committees to support 
the Regional Council's efforts and to coordinate working committees of 
the larger Regional Council membership focused on specific topics and 
tasks, including hosting presentations by Federal regional 
representatives to orient fellow representatives to specific agency 
strategies, initiatives, and collaborations.
    Intergovernmental Collaboration. As part of the Council's strategy 
to establish non-partisan, intergovernmental partnerships to end 
chronic homelessness, specific initiatives have been fostered with 
State and local governments.
    State Interagency Councils on Homelessness. To date, Governors of 
53 States and Territories have taken steps to create State Interagency 
Councils on Homelessness that mirror the partnership of the Federal 
Council. Under the leadership of Governors, States from Hawaii to 
Minnesota to North Carolina are developing State business plans, 
designating State policy point persons focused on homelessness, and 
producing new partnerships and results.
    The State Interagency Councils mirror the work of our Council by 
providing a formal framework for State secretariats and agencies to 
examine resource allocations and ensure better coordination of State 
resources and Federal block grant funding in their States for the 
benefit of homeless people. The creation of these State Interagency 
Councils builds on the investment by Federal agencies in the series of 
Policy Academies that were offered to States from 2001-2005 to improve 
the access of homeless people to mainstream resources.
    The Council's Regional coordinators and staff have provided 
technical assistance to facilitate the creation of these State 
Interagency Councils, the identification of their membership, and their 
work in developing State plans. This technical assistance has included 
mentoring and peer models as well as producing and distributing a Step-
by-Step Guide to Developing a State Interagency Council on 
Homelessness.
    In fiscal year 2005, the Council convened a series of five regional 
colloquies for State government policymakers, reaching leaders from 41 
States with a faculty of experts on data and research, treatment 
programs, housing finance and development, and veterans services. 
Innovative programs with results--whether Washington State's initiative 
focused on incarcerated veterans or South Carolina's data warehouse--
were the focus.
    Jurisdictional 10-Year Plans. In addition to the Council's work in 
helping to foster State Interagency Councils on homelessness, we 
recognize that communities are on the frontlines of homelessness, and 
we are working with Mayors and County Executives to develop 
performance-based, results-oriented 10-year plans to end chronic 
homelessness. The Council has worked to help ensure coordination 
between a jurisdiction's 10-year plan and other plans in the community, 
including HUD's ``Continuum of Care'' plan.
    Over 210 Mayors and County Executives have committed to 10-Year 
Plans to End Chronic Homelessness. The Council provides technical 
assistance to States and localities in the development of these 
initiatives including the expeditious dissemination of innovative best 
practices that are results-oriented. They are supported in their 
efforts by two Council technical assistance tools, a Step-by-Step Guide 
to Developing 10-Year Plans, and the more recent innovation-focused 
Good to Better to Great.
    These Mayors and County Executives are working with the Council, 
with their State officials, with their Chambers of Commerce and other 
downtown associations, with their faith based and community 
organizations, with providers and advocates, and with homeless people 
to create business plans that quantify the problem, focus resources on 
permanent solutions that are evidence-based, and track results. With 
technical assistance from the Council, the ``legitimate larceny'' of 
innovative ideas is seeding the best outcome oriented plans from coast 
to coast.
    Moreover, through these local planning processes, the private 
sector is being re-engaged, for example, in fifteen City and County 
planning processes in North Carolina, where the United Way is a partner 
to many of these initiatives; in Reno and Las Vegas, where City and 
State resources are being targeted to the effort; and in Denver where 
the faith community is stepping up to help. New resources from business 
and philanthropy are being invested in these plans. Nowhere is that 
more tangible than in Atlanta where Mayor Shirley Franklin's plan has 
attracted $20 million from private philanthropy in the past year and a 
half.
    This jurisdictionally based 10-year planning effort has been 
endorsed by the U.S. Conference of Mayors, the National League of 
Cities, the National Association of Counties, the International 
Downtown Association, the United Way, and national homeless advocacy 
groups, all of whom have passed resolutions or offered direct 
assistance in support of the goal of ending chronic homelessness and 
encouraging communities to develop 10-year plans.
    Just 1 year ago, a Covenant of Mayoral Partnership to End Chronic 
Homelessness, shaped with the U.S. Conference of Mayors and supported 
by the Council to assist local plan implementation, was adopted during 
the Hunger and Homelessness Task Force meeting of the U.S. Conference 
of Mayors, led by Nashville Mayor Bill Purcell and then Cedar Rapids 
Mayor Paul Pate. Mayors who signed the Covenant--67 in all--committed 
to collaborating with each other on an ongoing basis to exchange data 
to better quantify the number of chronically homeless persons, share 
best practices, try innovative solutions, and track their progress. 
Mayors representing communities as large as Philadelphia, San Diego, 
and Dallas and as small as Henderson, North Carolina (population: 
17,000) are demonstrating that chronic homelessness is not solely an 
issue in a few urban areas.
    Addressing the Needs of Veterans. These Covenant Mayors gave a 
special priority to addressing the needs of veterans, and the Council 
recognizes that the needs of homeless veterans must be given special 
attention and consideration in the development of State Interagency 
Councils on Homelessness and in the development and implementation of 
jurisdictional 10-year plans. Best practice in the convening of 
planning partnerships and the development of jurisdictional plans will 
ensure early inclusion of partners who address the needs of homeless 
veterans, the development of jurisdictional data on their needs, and 
the design of partnerships and investments that prevent and end their 
homelessness.
    The Council believes that no State, County, or City jurisdictional 
10-year plan to end chronic homelessness can be considered complete 
without directly addressing the issues of homeless veterans and, to 
that end, without the inclusion in jurisdictional planning partnerships 
of individuals and organizations that can effectively represent the 
needs of homeless veterans and are knowledgeable about the resources 
and proven strategies to serve them.
    Accessing resources targeted to homeless veterans not only helps 
end the homelessness of veterans. It also means that homeless veterans 
will utilize fewer dollars not specifically targeted to them, thus 
maximizing the use of available resources for other subpopulations of 
persons experiencing homelessness.
    Identifying and Replicating Innovation. Just 2 weeks ago, the 
Council, in partnership with the Rockefeller Foundation and Common 
Ground, convened the Mayors' Summit: Preventing and Ending Homelessness 
among veterans, with representatives from eighteen cities who met for 2 
days with a faculty of national experts on the issues related to 
preventing and ending homelessness among veterans. We were joined there 
by William McLemore, the VA Deputy Assistant Secretary for 
Intergovernmental Affairs who represented Secretary Nicholson and gave 
the cities his support in their focus on veterans.
    The Summit's emphasis was best practices that engage homeless 
veterans--including peer-to-peer programs and mobile services--and 
innovative housing models, the outcome of which is a stable tenancy in 
permanent supportive housing. The special needs of incarcerated 
veterans and women veterans were addressed, as were programs and 
services that effectively engage returning veterans to identify those 
with PTSD and other risk issues that could ultimately lead to 
homelessness. All of this effort was with the intent of identifying and 
ending homelessness for veterans in the cities present and preventing 
future homelessness for returning service members.
    Intercommunity Collaboration. To carry out the strategy of 
intergovernmental and inter-sector partnership, the Council has 
developed community partnerships with the National Governors 
Association, U.S. Conference of Mayors, National League of Cities, 
National Association of Counties, United Way, Chamber of Commerce, 
International Downtown Association, National Alliance for the Mentally 
Ill, and the National Alliance to End Homelessness. Additionally, the 
Council regularly convenes State and local officials, communicates with 
national and local provider and advocacy organizations, and 
communicates directly with homeless people to foster consumer-centric 
solutions.
    Technical Assistance and Support. To administer and facilitate the 
Council's mission at the local and regional level, the Council has 
Regional Coordinators throughout the country through partnership with 
HUD. Each of the Coordinators is responsible for working with Federal 
partners and State and local governments, homeless advocates, 
providers, and consumers to encourage and coordinate their collective 
efforts to end chronic homelessness. The Coordinators facilitate the 
creation of Regional Federal Interagency Councils and State Interagency 
Councils, as well as jurisdictional 10-year plans.
    As part of the planning effort, the Council's Regional Coordinators 
in FY 03-04 convened ten regional technical assistance focus groups for 
City and County administrators from over 200 jurisdictions to learn 
from expert faculty representing Cities already underway with their 
plans, innovative practitioners around the country, and key 
stakeholders.
    I am pleased to report that our efforts to establish 
intergovernmental partnerships to end chronic homelessness and reduce 
the incidence of all homelessness have been welcomed by Governors, 
Mayors, and County Executives across the country who have committed to 
the creation of State Interagency Councils on Homelessness and to 10-
Year Plans to End Chronic Homelessness.
    The Council is encouraging the use of the ``Killer Bs'' in the 10 
year planning process--a business plan that is created around a 
management agenda that establishes baselines to quantify the problem, 
benchmarks to remedy and is attentive to budget.
    Partnering to Prevent and End Chronic Homelessness for Veterans. To 
extend the partnerships described above and achieve results for 
veterans experiencing or at-risk of homelessness, the Council works in 
a variety of ways that I will describe briefly.
    The Secretary's Advisory Committee on Homeless Veterans. Although 
not an ex officio member of the Advisory Committee under statute, the 
Council actively collaborates with the VA Secretary's Advisory 
Committee on Homeless Veterans. In 2004, the Council named an official 
liaison, John O'Brien, for the Advisory Committee from among its 
Regional Coordinators in order to provide consistent and expert support 
to the Committee on Council issues. Mr. O'Brien served in the Navy and 
is a Vietnam veteran; his work in the New England States to create 
State Councils and 10-year plans has been exemplary. His responsibility 
includes attending the Advisory Committee meetings, reporting to the 
Advisory Committee on the progress and outcomes on prior 
recommendations for action from the Advisory Committee, as well as 
other activities and initiatives on the part of the Council.
    Mr. O'Brien also reports to the Council on additional 
recommendations and follow up requested by the Advisory Committee and 
works with Regional Coordinators to develop and deliver to the field 
any needed information that will advance veterans issues in City and 
State partnerships. These recommendations and follow up become part of 
the basis of ongoing reporting back to the Advisory Committee. Current 
reporting includes identifying:
    <bullet> States that have a veteran's representative on their State 
Interagency Councils on homelessness
    <bullet> State and local 10-year plans to end chronic homelessness 
that are completed and identify specific strategies and resources that 
will prevent and end homelessness among veterans
    <bullet> Local jurisdictional 10-year planning committees that have 
a veteran's representative who can insure the inclusion of the needs 
and interests of homeless veterans in the 10-year plan to end chronic 
homelessness
    <bullet> Council staff site visits to VA Medical Centers that lead 
to a better understanding of the resources available from the VAMC and 
provide information to the VAMC staff on current Council initiatives, 
innovations, and best practices identified that are effective in 
helping prevent and end homelessness among veterans.
    The Council and the Advisory Committee have also identified 
collaborative initiatives designed to identify opportunities for the 
Council and the Advisory Committee to enhance their respective efforts 
to prevent homelessness and end homelessness among veterans. These 
initiatives have included the development and distribution of the 
document, Homeless Veterans: Representing the Needs and Interests of 
Homeless Veterans in State, County, and City 10-Year Plans to End 
Chronic Homelessness, a document that identifies the need for a 
veterans representative in planning bodies and was jointly developed by 
the Council, VA, and the Advisory Committee.
    Technical Assistance to States and Local Jurisdictions. Council 
Regional Coordinators are located in seven regions of the country and 
are responsible for providing support and technical assistance to 
States and local jurisdictions as they plan and implement plans to end 
chronic homelessness. It is the responsibility of Regional Coordinators 
to become familiar and build relationships with VA representatives and 
resources in their region to better insure the needs and interests of 
homeless veterans are effectively identified in 10-year plans to end 
chronic homelessness, to insure specific strategies are developed to 
help prevent and end homelessness among veterans, and to identify the 
resources available to homeless veterans at the Federal, State, and 
local level.
    Communications and Information. Shortly after its revitalization, 
the Council established a central Federal Web page on homelessness 
(www.usich.gov), creating a one-stop information source that links to 
all twenty Council member web sites and their homelessness information 
resources. The Council site provides news of State Interagency Council 
developments, 10-Year Plan announcements by Mayors and County 
Executives, and funding announcements by Federal partners. The site 
offers new opportunities for learning about Federal homelessness 
assistance programs, including VA programs, and disseminates 
information on homeless assistance and other funding opportunities for 
State and local government agencies and faith-based, community, and 
nonprofit organizations.
    In fiscal year 2004, the Council established a weekly e-newsletter 
that is now distributed by email to over 8000 key State, City, and 
County officials, homeless coordinators, Federal grantees, program 
directors, faith-based, community, and nonprofit organizations, 
business and philanthropic decisionmakers, and other partners. The cost 
effective electronic e-newsletter helps to direct readers to the 
Council's web site and features timely stories on Council member 
agencies, Federal and other funding resources, and State and local 
government initiatives. Interested individuals can subscribe on line 
using the Council's web site.
    The Continuing Work of the Council. The Council has encouraged an 
emerging Federal strategy based on the policy objectives described 
above, and based on its statutory activities of Federal homeless 
program review, governmental and private programs evaluation, 
information distribution, and provision of technical assistance.
    Guided by a management agenda that incorporates a broad spectrum of 
partnerships, cost benefit analysis, outcome measurement data, sharing 
of evidence based practices, performance based investments, 
strengthened prevention, results oriented interventions, and targeted 
resource investments, the partnerships fostered by the Council's 
activities are providing a blend of Federal, State, County, City, and 
private sector resources to accomplish the mission.
    Our work together in the Council is to reduce and end chronic 
homelessness. Through a management agenda that prioritizes research, 
performance, and results, and through interagency, intergovernmental, 
and intercommunity partnerships and investments, ending chronic 
homelessness is an achievable goal.

    Chairman Craig. To all of you panelists, thank you.
    The record is going to remain open so that we can ask 
questions of you. I hope you don't feel as sandwiched this 
morning as I feel, because this is an issue the Committee is 
extremely interested in, reflective of your interests and the 
commitment and the progress that is being made out there. We 
want to assure that continues and that we address this issue of 
homeless veterans.
    Again, thank you very much. I apologize for the character 
of the environment we are in, but that is where we are today.
    The Committee will stand adjourned.
    [Whereupon, at 11:45 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

         Prepared Statement of Hon. Richard Burr, U.S. Senator 
                          from North Carolina

    I thank the Chairman and the Ranking Member for scheduling this 
hearing on the important issue of homelessness among veterans.
    The VA estimates that, on any given night, as many as 200,000 
veterans are homeless. We also know that 45 percent of homeless 
veterans have a mental illness and 50 percent have some sort of 
addiction.
    Last year, I introduced a bill designed to help prevent extremely 
low-income and at-risk veterans from becoming homeless--to actually 
help keep them in their homes.
    S. 1991, the Services to Prevent Veterans Homelessness Act, would 
make grants to nonprofits and faith-based organizations to provide 
services to extremely low-income veterans who are in permanent housing.
    The services provided for in the bill--from vocational counseling 
and personal financial planning, to health and rehabilitation--are 
designed to address the root causes of homelessness.
    The cost of this bill is $25 million annually--a small sum to help 
the poorest of our veterans. In North Carolina alone, over 43,000 
veterans live below the poverty line. This bill would allow the VA to 
partner with nonprofits in order to help these poor veterans escape the 
root causes of homelessness.
    I urge the Committee to consider whether we are doing enough on 
this issue and I invite my colleagues to study this bill and become 
cosponsors.
                               __________

  Prepared Statement of Sandra A. Miller, Chair, Vietnam Veterans of 
                 America, Homeless Veterans Task Force

    Mr. Chairman, and Members of the Senate Veterans' Affairs 
Committee, my name is Sandra A. Miller. I served as a Senior Enlisted 
Woman in the U.S. Navy from 1975 until 1981 and am currently Chair of 
Vietnam Veterans of America's Task Force on Homeless Veterans. I work 
daily with homeless veterans as Program Coordinator of a ninety-five 
bed transitional residence, one of the many programs provided by The 
Philadelphia Veterans Multi-Service & Education Center to an exclusive 
veteran population for over twenty-five years.
    On behalf of VVA, I thank you and your colleagues for this 
opportunity to submit testimony sharing our views on the status of 
homeless assistance programs for veterans funded by the Department of 
Veterans Affairs (VA).

                 VA HOMELESS GRANT AND PER DIEM PROGRAM

    The VA Homeless Grant and Per Diem Program (HGPD) has been in 
existence since 1994. Since then, thousands of homeless veterans have 
availed themselves of the programs provided by community-based service 
providers. The need is still present. VVA seeks $200 million to be made 
available in the VA FY'07 budget for the VA HGPD Program and funded 
through FY'2011.
    In some areas of this country, the VA and community-based service 
providers work successfully in a collaborative effort to actively 
address homelessness among veterans. The community-based service 
providers are able to supply much-needed services in a cost-effective 
and efficient manner. The VA recognizes this and encourages residential 
and service center programs in areas where homeless veterans would most 
benefit.
    The VA's HGPD program offers funding in a highly competitive grant 
round. Because financial resources available to HGPD are limited, the 
number of grants awarded and the dollars granted are restrictive: VVA 
believes that legislation must be enacted to make VA Homeless Grant and 
Per Diem funding a payment rather than a reimbursement of expenses. 
This is an important change that will assist community-based 
organizations to deliver services in a financially effective and 
resourceful manner, allowing for an efficient method to cover 
discretionary expenses related to affiliated program functions within 
the nonprofit agency.

                       HGPD PER DIEM ONLY GRANTS

    Another component of the HGPD program is the award of Per Diem Only 
(PDO) grants. These grants do not contain any ``bricks and mortar'' 
dollars. The PDO grants must be renewed on a regular basis (currently, 
every 3 years). VVA applauds the efforts of the VA in the readdress of 
the renewal process for PDO programs, allowing them to renew without 
competition with new grant requests. This permits an existing program 
to stand proud on its merits, achievements, and positive outcomes.

                        SHARED LEASE AGREEMENTS

    Some of the HGPD recipient programs have entered into Shared Lease 
Agreements with local VA Medical Centers, utilizing dormant, unoccupied 
space. The nonprofit agency for which I work has taken advantage of 
this opportunity, a cooperative venture with the Coatesville VA Medical 
Center. We have a long-standing and strong working relationship with 
its leadership and staff. Additionally, we have received continued 
support from VISN 4.
    The strength of the VA-nonprofit relationship is unique to each 
medical center and agency. Each must have a clear understanding of the 
services and assistance they can lend to each other to enhance local 
homeless veteran programs. VVA recognizes that a strong collaboration 
between the VA and the nonprofit brings greater resources to address 
issues faced by homeless veterans in local communities.
    The issue of shared lease agreements, however, does require 
attention. There is no uniform policy in the contractual VA Memorandums 
of Agreement leasing fees that community-based service providers pay 
for use of vacant VA spaces. The amounts range across a wide spectrum. 
This is an inequitable procedure and requires immediate redress. There 
needs to be a standard, set calculation, with built-in geographic 
considerations, on the amounts community-based service providers pay 
for usage of otherwise vacant or unused facilities. This policy must 
also be driven by considerations beyond cost: the mission must be 
calculated into the equation. For many of the community-based service 
providers who are small nonprofit agencies, a uniform calculation would 
provide additional funds to be utilized in the direct provision of 
services to homeless veterans. As determined by the VA's own 
calculations for Per Diem eligibility, nonprofits can only obtain Per 
Diem equal to, but not in excess of, the cost of the program. 
Nonprofits don't get rich off VA Per Diem dollars.
    With this said, I will again reiterate that Per Diem funding should 
be a payment rather than a reimbursement. Considering the minimal daily 
amount of money provided to assist veterans in a residential program 
and the limited budget provided to VA for HGPD, the cost of program 
audits could be saved and the accounting process stream-lined. At the 
very least VVA believes that the residential fees paid by veterans in 
these programs should not be subtracted from the overall cost of the 
program in determining the amount of Per Diem for which the agency is 
eligible. This current process makes it difficult to justify what 
little Per Diem is available to the agency.

           PROGRAMS FOR HOMELESS WOMEN VETERANS AND CHILDREN

    It is a national scandal that so many men--and, increasingly, 
women--who have served our nation do not have a roof over their head, a 
place to call home. Although there are many reasons that have caused 
them to become homeless, they deserve our best efforts to help them 
salvage their lives.
    VVA commends the VA for its fiscal year 2000 initiative 
specifically targeting homeless women veterans, with the creation of 
twelve pilot programs located in VA's across the country. These pilot 
programs have reached initial completion and the VA North East Program 
Evaluation Center is analyzing the outcome data. While we realize 
continuance of these programs is heavily weighted by program outcomes, 
we urge the VA--and specifically the VISN Directors--to continue 
funding and staffing these women veteran-specific homeless programs.
    The profound significance of these pilot programs, as seen in the 
lives of the homeless women who are participants, begs serious 
consideration. Because VA homeless domiciliaries are primarily utilized 
by male veterans, women find it difficult to acclimate themselves to 
the male-dominated residential structure, not only in light of their 
small representation in the population, but also because of past 
personal histories which include a significant occurrence of sexual 
abuse and trauma.
    Over the past ten to fifteen years the VA has made great 
advancements in the treatment, care and benefits for women veterans. 
One does wonder if they are prepared for the numbers yet to come. 
However, when we address the issue of women in the homeless 
domiciliaries, we must not overlook the aspect of safety and security. 
VVA believes women veterans require segregated residential space. We 
believe this will also enhance the therapeutic setting.
    With so few VA homeless women residential programs, VVA maintains 
there should be a stronger emphasis on establishing residential 
programs for homeless women veterans. The funding or contract 
arrangement for them should be considered outside the HGPD program. 
Community-based partnerships are especially vital when we consider the 
number of dependent of children who factor into this equation.
    The VA ``Special Needs'' Grants have been a recent investment 
placing direct funding to community programs that provide residence to 
``special'' populations, one of which is women. This funding must not 
be lost. It is vital when dealing with homeless populations whose 
demand for care can be so much more costly.

                    VA HOMELESS DOMICILIARY PROGRAMS

    Domiciliary programs located within various medical centers 
throughout the VA system have proven costly. As stand-alone programs, 
many do not display a high rate of long-term success. During this time 
of fiscal restraint, programs assisting homeless veterans need to show 
a cost/benefit ratio in order to survive. Due to the Federal pay scales 
and other indirect cost factors, VA Homeless Domiciliary programs 
generally cost twice as much per homeless veteran participant (often 
over $100 per day per veteran) as those programs of community-based 
organizations. If the operational cost of the VA Homeless Domiciliary 
program is to be justified, then an assurance of veteran success and a 
diminished rate of recidivism should be expected. This is not always 
the case and is especially true if the veteran has no linked 
transitional residential placement at discharge.
    A linkage with nonprofit community programs will enhance outcomes 
in a cost-effective manner and openly speak to the belief in the 
``continuum of care'' concept embraced by VA. HGPD has increased 
transitional placement possibilities in a number of areas, but more are 
desperately needed.
    Where no VA Homeless Veteran Domiciliary exists, VVA urges the VA 
to form an active linkage with community-based organizations for 
extended homeless veteran transitional services at the conclusion of VA 
Homeless Domiciliary care.

                HOMELESS VETERANS REINTEGRATION PROGRAM

    VVA urges full funding to the authorized level of $50 million for 
the Homeless Veterans Reintegration Program (HVRP) administered by the 
Department of Labor (DOL) from FY'07 through FY'2011. This training and 
employment initiative has proven to be cost-effective. Congress should 
also expand the eligible population for HVRP to include veterans at 
imminent risk of homelessness so that HVRP may have both preventative 
and remedial purposes. Only through re-training can we expect to place 
many of the homeless veterans in the employment market. Without re-
training and employment, many of these veterans will not be able to 
regain a sense of self-worth, purpose, and direction.

                                HUD-VASH

    In 1992, VA joined with HUD to launch the HUD-VASH program. HUD 
funded almost 600 vouchers each (a total of 1,753) for this program. 
Through the end of FY'02, the program had served 4,300 veterans. This 
successful program was given additional HUD-VASH vouchers with the 
passage of P.L. 107-95, section 12. However, HUD, a very large player 
in the effort to end homelessness, has not requested appropriations for 
the additional HUD-VASH vouchers. VVA believes this program should be 
extended until 2010 and these vouchers should be included as budget 
language in HUD's FY'07, FY'08, FY'09 and FY'10 budgets.

         STUDY OF LOW-INCOME VETERANS' PERMANENT HOUSING NEEDS

    The Federal Government makes a sizable investment in homeownership 
opportunities for veterans, there is no parallel national rental 
housing assistance program targeted to low-income veterans. Veterans 
are not well served through existing housing assistance programs due to 
their program designs. Low-income veterans in and of themselves are not 
a priority population for subsidized housing assistance. And HUD 
devotes minimal attention to the housing needs of low-income veterans, 
as exemplified by, the long-standing vacancy in the position of special 
assistant for veterans programs within the Office of Community Planning 
and Development. It is imperative that Congress elevate national 
attention to the housing assistance needs of our nation's low-income 
veterans. Congress has taken initial steps in this regard by including 
language within the report to accompany the final fiscal year 2006 
military construction and veterans' affairs appropriations measure 
requires the Government Accountability Office to conduct a study on 
housing assistance to low-income veterans. The study is due in spring 
2006. But we have heard nothing about its progress. VVA urges the 
Senate Veterans' Affairs Committee to ensure GAO's timely completion of 
this required study.

       SUPPORTIVE SERVICES FOR SPECIAL NEEDS DEMONSTRATION GRANTS

    Our country's homeless problem is a national disgrace that refuses 
to fade. Homelessness has varied definitions and many contributing 
factors. Among these are PTSD, a lack of job skills and education, 
substance abuse, and mental health problems. The homeless require far 
more than just a home. A comprehensive, individualized assessment and a 
rehabilitation/treatment program are necessary, utilizing the continuum 
of care concept. Assistance in obtaining economic stability for a 
successful self-sufficient transition back into the community is vital. 
Although many need help with permanent housing, some require long-term 
residential care.
    With this in mind, VVA recommends that the annual funding level be 
increased to $20 million through FY'2011, and to retain language in 
Section 2061(c)(2) of title 38 that the funds directed to special needs 
not be allocated through the VERA funding model. The VA Grant and Per 
Diem Program provides a cost-effective model that could close the 
critical gap for veterans who are women, those who are frail, elderly, 
terminally ill, or have a chronic mental illness and are not ready, and 
may not become ready, to move from transitional program to self-
sufficiency.

                              DENTAL CARE

    VVA is requesting a revision of the 60-day rule and fully implement 
the dental care program for all eligible veterans in accordance of 
Section 2062(b) of title 38 under P.L. 107-95

                      VBA REGIONAL OFFICE STAFFING

    Because the claims for compensation/pension of thousands of 
homeless veterans are in adjudication limbo, VVA believes that these 
claims should be fast-tracked, and that the Veterans Benefits 
Administration hold managers accountable for developing sufficient 
training in all areas required under P.L. 107-95. VVA also recommends 
to better serve our homeless veterans this provision of the law be made 
permanent.
loan guarantee for multfamiy transitional housing for homeless veterans
    VVA believes the VA is long overdue in implementing Section 601 of 
P.L. 105-368. It has always been our understanding that this program 
was to provide a housing option for a period longer no than 2 years, 
the average length of time a homeless veteran spends in a traditional 
transitional living arrangement. The intent, as we understand it, is to 
provide long-term housing options for homeless veterans.
    VVA continues to object to legislation that would move this program 
from a loan program to a grant program and, in the process, change it 
from mandatory to discretionary funding. This would alter the original 
intent of the statute, which is to infuse private capital into the 
effort to remediate the problem. If the sense of Congress is to be met, 
VVA asks for full funding of P.L. 105-368 and P.L. 107-95. Without full 
funding, achieving the sense of Congress will not be met, and 
potentially thousands of homeless veterans who are ready to become 
productive members of their community will have an additional burden to 
overcome.

                 ``SUPPORTIVE SERVICES ONLY'' PROGRAMS

    VVA realizes that, to a certain extent, the budget drives the 
ability of the VA to fund HGPD programs. Consider these few items: the 
VA's limited funding ability; the decreasing desire of HUD to fund 
Supportive Services programs; the HUD disincentives placed on cities to 
renew McKinney-Vento funded supportive services programs; the impact 
that lost supportive service programs will have on the local social 
service system. Drop in Centers are one type of programs that utilize 
homeless grants for what is known as ``Supportive Services Only'' (SSO) 
funding. HUD funds these SSO programs via the local agency's inclusion 
on their local City's priority list for its annual HUD McKinney-Vento 
submission. When originally funded the agency was required to commit to 
a twenty year operational program. It is unclear to VVA how many SSO 
programs are effected by this recent trend in the denial of renewals. 
However, in as an example, this year Philadelphia had determined not to 
renew HUD funding for a minimum of twelve ``supportive services only'' 
programs previously funded through its continuum of care consolidated 
plan. SSO programs targeting homeless veterans are included in this 
evolving funding atmosphere. Our question is to what extent are the 
cities responsible for the continued renewals of programs that were 
previously vital to the local continuum?
    We ask this in light of the twenty-year financial burden of 
commitment required by small nonprofit agencies when they are 
originally awarded their grants and led to believe they are a crucial 
component and partner to the comprehensive approach to the elimination 
of homelessness. To suggest the nonprofits find alternate funding in 
order to continue and satisfy the twenty-year commitment seems 
unrealistic in light of the very limited grant funding available for 
such SSO programs. In some instances this could ultimately lead to the 
death of some nonprofit agencies . . . the life line of not only the 
agencies homeless clients, but also to some of the city social service 
agencies that depend on the agency to assist with clients in an already 
over-burdened local service system.
    At a time when the big push is on permanent housing for the 
homeless, with wrap around supportive services, is it logical to 
eliminate these programs on the community level? In light of this 
situation and as a logical fit, VVA believes it is time for the U.S. 
Department of Health and Human Services (HHS) to enter this arena. It 
is in fact quite logical. We urge this committee to encourage HHS to 
work with VA in establishing a unique partnership, creating a joint 
program in an effort to provide enhanced opportunities to homeless 
veterans through a collaborative agency process. VVA urges dialog 
between these two agencies in an effort to reach a viable option to the 
threatening situation that is facing the nonprofits of this country 
that are gravely concerned about their own demise. What a terrible loss 
this would be to the structure of community involvement that has been 
so encouraged.

                  THE INTERAGENCY COUNCIL ON HOMELESS

    Community providers across the country had great hopes for the 
Presidential Interagency Council on Homeless (ICH), thinking it would 
translate to local, on the ground, resources . . . down where the 
rubber hits the road, in the local community agencies and programs. 
They found this not to be the case and this they have found very 
disappointing. They believed it would produce more cooperative Federal 
agency action, not just talk. But even that seems to be falling off. We 
strongly urge this committee to inquire as to why the Senior Working 
Group of the ICH have not met in the recent past, actually in a very 
long time, and why this group does not meet on a regular basis. 
Homeless providers were led to believe this was an important 
initiative.
    Thank you.
    In closing, VVA recognizes the tremendous strides that have been 
made by Department of Veterans Affairs in addressing and providing 
services for homeless veterans. We want to cite Pete Dougherty and his 
staff for their continued commitment to our homeless veterans. We must 
work together in a bipartisan manner to improve long-term services for 
our homeless veterans with better planning in areas of employment, 
special need, transitional/permanent housing, dental and childcare 
programs, if we are to succeed in meeting the President's goal of 
ending chronic homelessness within 10 years.
    In conclusion, VVA thanks the Chairman and Members of the Senate 
Veterans' Affairs Committee for the attention you give to the needs of 
all our veterans and for allowing us to enter this statement for the 
record.
  

                                  <all>

</pre></body></html>
